<html>
<title> - POWERING UP CLEAN ENERGY: INVESTMENTS TO MODERNIZE AND EXPAND THE ELECTRIC GRID</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                 POWERING UP CLEAN ENERGY: INVESTMENTS 
               TO MODERNIZE AND EXPAND THE ELECTRIC GRID

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE 
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 20, 2021

                               __________

                            Serial No. 117-4
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-954                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                SELECT COMMITTEE ON THE CLIMATE CRISIS
                
                    One Hundred Seventeenth Congress

                      KATHY CASTOR, Florida, Chair
SUZANNE BONAMICI, Oregon             GARRET GRAVES, Louisiana,
JULIA BROWNLEY, California             Ranking Member
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 DAN CRENSHAW, Texas
VERONICA ESCOBAR, Texas              ANTHONY GONZALEZ, Ohio
                                 ------                                
                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                           
                           
                           C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     4

                               WITNESSES

Linda Apsey, President and CEO, ITC Holdings Corp
    Oral Statement...............................................     6
    Prepared Statement...........................................     8
Donnie Colston, Director, Utility Department, International 
  Brotherhood of Electrical Workers
    Oral Statement...............................................    12
    Prepared Statement...........................................    13
Emily Sanford Fisher, General Counsel, Corporate Strategy, and 
  Senior Vice President, Clean Energy, Edison Electric Institute
    Oral Statement...............................................    15
    Prepared Statement...........................................    18
Michael Skelly, Founder and CEO, Grid United
    Oral Statement...............................................    21
    Prepared Statement...........................................    22

                       SUBMISSIONS FOR THE RECORD

Report from Americans for a Clean Energy Grid, Transmission 
  Projects Ready to Go: Plugging into America's Untapped 
  Renewable Resources, submitted for the record by Ms. Castor....    44
Report from American Council on Renewable Energy, Investment Tax 
  Credit for Regionally Significant Electricity Transmission 
  Lines: A Description and Analysis, submitted for the record by 
  Ms. Castor.....................................................    44
Letter from the American Council on Renewable Energy to the 
  Select Committee in support of investments and policies to 
  upgrade and expand the electric grid, submitted for the record 
  by Ms. Castor..................................................    44
Letter from the Solar Energy Industry Association (SEIA) to Chair 
  Castor in support of transmission investments to help achieve 
  100 percent clean electricity, submitted for the record by Ms. 
  Castor.........................................................    48

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Linda Apsey...    50
Questions for the Record from Hon. Jared Huffman to Linda Apsey..    52
Questions for the Record from Hon. Kathy Castor to Donnie Colston    52
Questions for the Record from Hon. Kathy Castor to Emily Sanford 
  Fisher.........................................................    54
Questions for the Record from Hon. Anthony Gonzalez to Emily Sanfo
  rd Fisher......................................................    56
Questions for the Record from Hon. Mike Levin to Emily Sanford 
  Fisher.........................................................    56
Questions for the Record from Hon. Kathy Castor to Michael Skelly    58

 
                       POWERING UP CLEAN ENERGY:
                  INVESTMENTS TO MODERNIZE AND EXPAND
                           THE ELECTRIC GRID

                              ----------                              


                         THURSDAY, MAY 20, 2021

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m., via 
Zoom, Hon. Kathy Castor [chairwoman of the committee] 
presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, Levin, Casten, Graves, Palmer, Carter, Miller, 
Armstrong, Crenshaw, and Gonzalez.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    As a reminder, members participating in a hearing remotely 
should be visible on camera throughout the meeting.
    As with in-person meetings, members are responsible for 
controlling their own microphones. And members can be muted by 
staff only to avoid inadvertent background noise.
    In addition, statements, documents, or motions must be 
submitted to the electronic repository to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73001010105d0116031c001a071c010a331e121a1f5d1b1c0600165d141c055d">[email&#160;protected]</a>
    Finally, members or witnesses experiencing technical 
problems should inform the committee staff immediately.
    Well, good morning, everyone, and thank you all for joining 
this remote hearing. Today we are looking at the benefits for 
our country and workers that come from modernizing and 
expanding the electric grid.
    I now recognize myself for 5 minutes for an opening 
statement.
    Well, we started this Congress with hearings focused on the 
millions of jobs we can create in clean energy and resilience 
and then the growing risks and costs of inaction. Once again 
this week, we are seeing how extreme climate-fueled events harm 
Americans across the country and put lives at risk. Rising 
temperatures and the climate crisis are amplifying these 
impacts.
    Heavy rains and flooding in Texas, Louisiana, Oklahoma, and 
Arkansas have left homes, businesses, and entire communities 
under water. Over the weekend, more than 1,000 people in 
southern California were forced to evacuate their homes when a 
wildfire broke out in the Santa Monica mountains.
    Current drought conditions and a wildfire in the middle of 
May have already heightened fears of another long and brutal 
fire season on the West Coast, and our hearts go out to the 
families dealing with these disasters.
    And, Ranking Member Graves, our thoughts are with you and 
your constituents in the Baton Rouge area especially.
    Our efforts here in Congress must focus on solutions to 
help them, not only in the near term, but also the long term, 
to avoid the catastrophic climate consequences for our 
grandchildren--our children and our grandchildren. One of those 
important solutions is to modernize and expand the electric 
grid, making it stronger and more resilient.
    Wildfires out West and cold snaps in the South have left 
Americans in the dark and in danger just in the last 4 months. 
And climate-fueled disasters continue to hit our energy 
infrastructure, which is already in need of major repairs.
    Nationwide, the American Society of Civil Engineers gives 
American energy infrastructure a C-minus rating. We don't want 
a C-minus. We are America. This is America. We can do better 
than that. And when we do, hopefully together, we will create a 
lot of jobs and mend our supply chains through Buy American.
    Building a modern grid can increase our energy capabilities 
and improve efficiency across America, all while ensuring 
greater reliability. The energy catastrophe in Texas 
demonstrated the need for safeguarding the Nation's 
disconnected grids with better backup and interconnections.
    We have many innovations at the ready. We just need to 
deploy them. This also will create good-paying jobs that will 
help jump-start the economy. According to a recent report from 
Americans for a Clean Energy Grid, there are already almost two 
dozen shovel-ready projects that will reduce connection, 
improve reliability, and put over 1 million Americans to work. 
Another report by the American Council on Renewable Energy 
shows that an investment tax credit for priority high-voltage 
transmission lines would lead to about 650,000 new jobs.
    Both reports show that investing in our grid will create 
jobs. That is why renewing and modernizing the grid is the 
centerpiece of President Biden's American Jobs Plan. By passing 
the President's infrastructure plan, we can put thousands--
hundreds of thousands--of people to work, laying thousands of 
miles of transmission lines that will connect entire regions 
across America. It is a historic investment and a once-in-a-
generation opportunity to invest in America so we come back 
stronger.
    We already have the innovative technologies needed to 
increase the efficiency, capacity, and flexibility of our 
electric grid, and the experts here today will help explain 
how. We know we need to act quickly. As we expand clean energy, 
we will also reduce pollution and lower electricity bills and 
will build new transmission lines so that every city, town, and 
county can access America's affordable and abundant wind and 
solar energy.
    We must set ambitious goals via a clean energy and an 
energy-efficiency standard. Many States are way ahead of us on 
this, and we need to catch up. Cleaning up the power sector 
will also help us reduce carbon pollution from the 
transportation, building, and industrial sectors. Many 
automakers have already announced their commitment to electric 
vehicles, and I loved watching President Biden this week take a 
drive in the new Ford F-150 in Michigan, where he previewed the 
new electric pickup truck and renewed his commitment to the 
nationwide charging network.
    This is how we solve the climate crisis, by unleashing 
American innovation and building the cars of tomorrow in 
America.
    Today's witnesses will give us important insights on the 
road ahead of us as we double down on clean energy in a way 
that prioritizes workers and environmental justice. I look 
forward to our conversation.
    At this time, I will recognize Ranking Member Garret Graves 
for a 5-minute opening statement.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

                Hearing on ``Powering Up Clean Energy: 
        Investments to Modernize and Expand the Electric Grid''

                 Select Committee on the Climate Crisis

                              May 20, 2021

                        As Prepared for Delivery

    We started this Congress with hearings focused on the millions of 
jobs we can create in clean energy and resilience, and the growing 
risks and costs of doing nothing. Once again this week, we are seeing 
how extreme, climate-fueled events harm Americans across the country 
and put lives at risk. Rising temperatures and the climate crisis are 
amplifying these impacts.
    Heavy rains and flooding in Texas, Louisiana, Oklahoma, and 
Arkansas have left homes, businesses, and entire communities 
underwater. Over the weekend, more than a thousand people in Southern 
California were forced to evacuate their homes, when a wildfire broke 
out in the Santa Monica mountains. Current drought conditions--and a 
wildfire in the middle of May--have already heightened fears of another 
long and brutal fire season on the West Coast. Our hearts go out to the 
families dealing with these disasters. And our efforts here in Congress 
must focus on solutions to help them, not only in the near-term, but 
also to avoid catastrophic climate consequences for our children and 
grandchildren.
    One of those important solutions is to modernize and expand the 
electric grid, making it stronger and more resilient. Wildfires out 
west and cold snaps in the South have left Americans in the dark and in 
danger just in the last 4 months. Climate-fueled disasters continue to 
hit our energy infrastructure, which is already in need of major 
repairs. Nationwide, the American Society of Civil Engineers gives 
American energy infrastructure a C-minus rating. We don't want a C-
minus. This is America, and we can do so much better. And when we do 
it, hopefully together, we will create a lot of jobs, and mend our 
supply chains with Buy American.
    Building a modern grid can increase our energy capabilities and 
improve efficiency across America, all while ensuring greater 
reliability. The energy catastrophe in Texas demonstrated the need for 
safeguarding the nation's disconnected grids with better backup and 
interconnections. We have many innovations at the ready, but need to 
deploy them--and this also can create good-paying jobs that will 
jumpstart our economy. According to a recent report from Americans for 
a Clean Energy Grid, there are already almost two dozen shovel-ready 
projects that will reduce congestion, improve reliability, and put over 
a million Americans to work. Another report--by the American Council on 
Renewable Energy--shows that an Investment Tax Credit for priority 
high-voltage transmission lines would lead to 650,000 new jobs.
    Both reports show that investing in our grid will create jobs 
across America. That's why renewing and modernizing the grid is a 
centerpiece of President Biden's American Jobs Plan. By passing the 
President's infrastructure plan, we can put hundreds of thousands of 
people to work laying thousands of miles of transmission lines that 
will connect entire regions of our nation. It is a historic 
investment--and a once-in-a-generation opportunity to invest in America 
so we're come back stronger.
    We already have the innovative technologies needed to increase the 
efficiency, capacity, and flexibility of our electric grid. The experts 
here today will highlight how, and we know we need to move quickly. As 
we expand clean energy, we'll also reduce pollution and lower 
electricity bills. And we'll build new transmission lines so that every 
city, town, and county can access America's affordable and abundant 
wind and solar energy. We must set ambitious goals via clean energy and 
energy efficiency standards. Many states are way ahead on this and we 
need to catch up.
    Cleaning up the power sector will also help us reduce carbon 
pollution from the transportation, buildings, and industrial sectors. 
Many automakers have already announced their commitment to electric 
vehicles. I loved watching President Biden drive the new Ford F-150 in 
Michigan, where he previewed the new electric pick-up truck and renewed 
his commitment to a nationwide charging network. This is how we solve 
the climate crisis--by unleashing American innovation and building the 
cars of tomorrow in America.
    Today's witnesses will give us important insights on the road ahead 
of us, as we double down on clean energy in a way that prioritizes 
workers and environmental justice. I look forward to our conversation.

    Mr. Graves. Thank you, Madam Chair.
    And I do appreciate your recognition of some of the 
extraordinary challenges our folks are going through back at 
home. We recently had a storm this week where we got about 12 
inches of rain in about 8 hours. In fact, I think there was 1 
hour of time where we received about 4 inches of rain. So 
pretty incredible. I think my quick math was within about 8 to 
12 hours, our folks at home received as much rain as the 
average American does in--40 percent of the average rainfall in 
a year's time for the average American. So pretty incredible.
    But, in any case, I want to thank you for having this 
hearing. And, Madam Chair, as you know, every once in a while 
we don't agree, but in this case, in terms of updating our 
grid, I think this is an area where we absolutely share the 
same objectives. We have seen blackouts and brownouts all 
across the United States, and part of that is attributable to 
some of the grid issues. We also, I believe, have cyber 
vulnerabilities to much of our grid that needs to be addressed 
as we work to update the grid system. And so I want to 
reiterate that I think that we share that objective.
    As a matter of fact, in Ms. Sanford's testimony, she makes 
reference to a Princeton study that concludes that our grid 
capacity in terms of high-voltage transmission is going to need 
to triple between now and approximately 2050. Let me say that 
again. The capacity of high-voltage transmission in our grid, 
according to a Princeton analysis, indicates that it is going 
have to triple in capacity between now and 2050. And so that is 
very different than the status quo.
    Madam Chair, this administration has talked a lot about 
infrastructure. And I, once again, I share their concern for 
infrastructure. I think, like, roads, bridges, flood 
protection, I think that our ports, waterways, and airports are 
all Federal obligations, Federal responsibilities. They are 
part of the core infrastructure that the Federal Government has 
an obligation to work on. But my large concern with what this 
administration is trying to do is that putting an extraordinary 
amount of taxpayer dollars into a system that is incapable of 
delivering only results in more bad outcomes. And let me 
clarify what I am talking about there.
    You have heard, for example, that the average road project 
now takes 7 years just to get through an environmental review. 
I have no desire, and I am confident no one on this committee 
has any desire, to go trash the environment. But if we have, I 
believe, tripled the amount of time it takes to do an 
environmental review from when this law was first passed, we 
have got to take a fresh look at that. Let me say it again. Not 
to shortcut our review of the environmental impacts but to make 
sure that we are staying focused on the core objectives of that 
law, making sure that we are truly focused on the best 
environmental outcomes, but also staying focused on the project 
outcomes, the project objectives, because the worst kind of 
project in the world is a project that never gets finished.
    Madam Chair, as you know, I have spent from my teenage life 
on involved in infrastructure. And it is so frustrating to work 
with the Federal Government. They are an unreliable Federal 
partner. And I think that if we are going to realize the grid 
transformation that is needed, we have to make fundamental 
changes to our permitting process, to the way that we develop 
and we deliver projects for grid reform or modernization, as 
well as other types of infrastructure projects.
    And so I think that has got to be a very important, really, 
just a fundamental component of the recommendations we make 
moving forward on how to ensure that the preconstruction 
activities don't monopolize all of the funding all of the time 
to where we never see ultimately the outcomes that all 
Americans deserve.
    Last thing, Madam Chair, I want to make reference to my 
strong concerns about, I think, some of the confusing energy 
policies that we are seeing pushed right now by this 
administration. Madam Chair, I am just totally baffled. Months 
ago, we saw President Biden being deemed a hero for shutting 
down the Keystone Pipeline. Yet months later, we saw terrorist 
and hacker labels applied to the folks that shut down the 
Colonial Pipeline. How is it that the President can be a hero 
for shutting down a pipeline, while others are considered 
terrorists or hackers for shutting down a pipeline that had 
profound impacts on the U.S. economy, on folks all across the 
eastern seaboard?
    The same administration just--after years of just trashing 
the Trump administration and deeming them as being complicit in 
Russian activities, then just lifted sanctions to allow the 
Nord Stream pipeline to send Russian gas to our friends in 
Europe that has a higher emissions profile.
    I am really struggling with what appears to be the 
hypocrisy here, and I think that we have got to step in and 
make sure that we are making the right decisions for the global 
environment, for our allies, and for a clean energy future that 
is based on America's resources.
    Thank you. I yield back.
    Ms. Castor. I thank the ranking member.
    And I think everyone shares the concern over the Nord 
Stream pipeline. I know the Biden administration didn't change 
its opposition to that pipeline. But I think it does highlight 
the need for maybe a hearing in this committee on harmful 
pollution from frack gas and other fossil development, 
especially in the wake of the IEA's report this week that was a 
surprise to everyone about--not a surprise about the surge we 
needed in clean energy but that they recommend no new oil and 
gas development, no new fossil development. So we will be 
talking about that in the days ahead, I am certain.
    Mr. Graves. Madam Chair, I would welcome that hearing. I 
would love to do one on Nord Stream 2 and also on CCS activity. 
So thank you. Count us in.
    Ms. Castor. Without objection, members who wish to enter 
opening statements into the record will have 5 business days to 
do so.
    Now I want to welcome our witnesses. We will hear from 
leaders in the electric power industry on how investments to 
modernize and expand transmission infrastructure can create 
jobs, integrate more renewable energy, boost grid reliability, 
and protect the public health.
    Linda Apsey is the President and CEO of ITC Holdings Corp., 
which is the largest independent electricity transmission 
company in the United States. Based in Michigan, the company 
owns and operates high-voltage transmission infrastructure in 
Michigan, Iowa, Minnesota, Illinois, Missouri, Kansas, and 
Oklahoma, with plans underway to expand in Wisconsin.
    Donnie Colston is the Director of the Utility Department at 
the International Brotherhood of Electrical Workers, IBEW. He 
helps locals with collective bargaining agreements, working 
conditions, safety-related work practices, and apprenticeship 
training. A utility lineman, Mr. Colston started his career in 
transmission and distribution construction before working as an 
electric troubleman.
    Emily Sanford Fisher is the General Counsel, Corporate 
Secretary, and Senior Vice President for Clean Energy at the 
Edison Electric Institute, which represents investor-owned 
electric companies. Ms. Fisher manages EEI's litigation and 
legal affairs, and she oversees and coordinates strategic clean 
energy engagement across EEI and across the Federal Government.
    And Michael Skelly is the Founder and President of Grid 
United. He is a renewable energy entrepreneur and pioneer in 
the U.S. wind industry, who currently leads an early-stage 
transmission development company. Mr. Skelly was previously 
Founder and President of Clean Line Energy, a company that 
successfully permitted some of the longest transmission lines 
in the United States over the last 50 years.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Ms. Apsey, you are now recognized for 5 minutes 
for your testimony. Welcome.

 STATEMENTS OF MS. LINDA APSEY, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, ITC HOLDINGS CORP. ; MR. DONNIE COLSTON, DIRECTOR, 
  UTILITY DEPARTMENT, INTERNATIONAL BROTHERHOOD OF ELECTRICAL 
                           WORKERS; 
MS. EMILY SANFORD FISHER, GENERAL COUNSEL, CORPORATE SECRETARY 
& SVP, CLEAN ENERGY, EDISON ELECTRIC INSTITUTE; AND MR. MICHAEL 
              SKELLY, FOUNDER AND CEO, GRID UNITED

                    STATEMENT OF LINDA APSEY

    Ms. Apsey. Great. Good morning. And thank you, Chair 
Castor, Ranking Member Graves, and distinguished members of the 
Select Committee. I am Linda Apsey, President and Chief 
Executive Officer of ITC Holdings Corp., the Nation's largest 
independent electric transmission company. Thank you for 
holding this hearing and for addressing the clean energy 
economy and the future of the electric transmission grid.
    Our Nation's high-voltage transmission system holds the key 
to unlocking renewable energy potential in much the same way 
the interstate highway system provided a roadmap to economic 
prosperity in the middle of the 20th century. Like the 
construction of the interstate highways, transformative 
investments in the high-voltage grid will not simply just 
happen. It will require visionary leadership from Federal and 
state leaders, as well as cooperation among numerous 
stakeholders and the Nation's electric utilities that oversee 
the grid.
    If we are successful, this transformation of the grid can 
drive significant economic, environmental, reliability, and 
resiliency benefits for this and future generations to come.
    While recent years have seen some policy steps taken to 
encourage transmission investment, more needs to be done to 
address the three major hurdles to transmission development: 
planning, cost allocation, and siting. I will first focus on 
the significant benefits of transmission investment and then on 
Federal policies that can help spur a reliable and affordable 
low-carbon electric system.
    Electric transmission infrastructure is a strategic asset 
that can provide economic benefits and accelerate clean energy 
adoption. Modernizing the electric grid presents a unique 
opportunity to create hundreds of thousands of jobs. It also 
can generate sustained, long-term, economywide benefits, while 
helping to address decarbonization goals. The World Resource 
Institute estimates that for every $1 invested in U.S. 
transmission infrastructure, it creates approximately $2.40 in 
economic benefits.
    While transmission drives significant benefits, the 
regulations and regional planning process we currently have are 
insufficient to address the challenges we face. There is still 
much to be done at the Federal agency level to fix these 
processes and facilitate the necessary investment.
    First, the Federal Energy Regulatory Commission can improve 
planning processes by requiring regions to recognize and count 
all of the benefits of the given transmission project. Today, 
we only reflect whether the project is a reliability or 
economic project in our planning studies. We would strongly 
recommend that FERC also require planning studies to include 
state clean energy standards and realistic estimates for 
electrification growth.
    In addition, new cost allocation policies are required to 
provide for the expeditious integration of the significant 
amount of renewable energy projects waiting to be connected to 
the grid.
    FERC should also repeal or modify unhelpful policies, like 
Order 1000, that have slowed regional transmission development 
and simply made it more complex. The introduction of so-called 
competition is not competition. It is nothing more than a 
regulated bureaucratic bidding process with little appreciable 
benefit to the consumer.
    With President Biden's goal of decarbonizing the U.S. 
electricity sector by 2035, high-voltage transmission is taking 
center stage. The proposal for an investment tax credit for 
transmission could offer a valuable tool to stimulate large 
regional transmission projects that would connect remote 
renewable resources to our population centers. A well-designed 
tax credit for transmission can lower costs for large projects 
and make it easier to achieve cost allocation agreements, which 
is a key hurdle to project approval and construction.
    In short, we support the bipartisan goal of investing in 
the Nation's high-voltage electric transmission grid. We are 
prepared and stand ready to work with all stakeholders to meet 
the climate challenge and build a 21st century energy economy.
    I thank you for the opportunity to testify before this 
committee, and I look forward to working together to invest in 
America's clean energy future.
    [The statement of Ms. Apsey follows:]

              Statement of Linda Apsey, President and CEO 
                           ITC Holdings Corp.

                     U.S. House of Representatives

                 Select Committee on the Climate Crisis

                      ``Powering Up Clean Energy: 
        Investments to Modernize and Expand the Electric Grid''

                              May 20, 2021

    Thank you, Chair Castor, Ranking Member Graves, and distinguished 
members of the Select Committee, for inviting me to testify on the 
critical topic of modernizing and expanding the electric grid.
    I am Linda Apsey, Chief Executive Officer of ITC Holdings Corp. 
(ITC). As the largest independent electricity transmission company in 
the country, ITC owns and operates electric transmission assets in 
Michigan, Iowa, Minnesota, Illinois, Missouri, Kansas and Oklahoma with 
a combined peak load of 26,000 megawatts along 16,000 circuit miles of 
transmission lines. Since we have no geographic constraints, ITC is 
also focused on new areas where significant transmission system 
improvements are needed. We are proud of our record of investing in the 
grid to improve resilience, lower costs, and provide access to 
affordable renewable resources for our customers.
    Thank you for holding this hearing and for addressing the clean 
energy economy and the future of the grid. The Select Committee Staff 
Report and Action Plan offer a comprehensive menu of policy options 
designed to spur investment in grid infrastructure and large-scale 
renewable energy needed to decarbonize the electric system in an 
efficient and affordable manner that also will enhance resiliency and 
reliability. Many of these ideas are now carried forward in President 
Biden's American Jobs plan.
    While recent years have seen some policy steps taken to encourage 
transmission investment, more needs to be done to address the three 
major hurdles to transmission development--planning, permitting, and 
cost allocation. I will first focus on the benefits of transmission 
investment and then on federal policies that can spur a reliable and 
affordable low-carbon electric system.

Transmission Investment Can Accelerate Clean Energy and Create Jobs

    Our nation's high voltage transmission system holds the key to 
unlocking the renewable energy future, in much the same way the 
interstate highway system unlocked prosperity in the middle of the 20th 
century. Like interstate highways, transformative investments in the 
high voltage grid will not simply happen. Modernization and expansion 
of our electric grid will require visionary leadership from federal and 
state leaders, as well as cooperation among numerous stakeholders, 
including the nation's electric utilities. If we are successful, this 
transformation of the grid can drive significant economic and 
environmental benefits for this generation and the next.
    Since our inception, ITC has played a critical role in the 
transformation of the generation fleet to cleaner and more sustainable 
generation sources. While we have done much--having already connected 
about 6800 megawatts of renewable capacity to the grid--much remains to 
be done.
    Consider a few of the trends contributing to our changing energy 
landscape:

    <bullet>  Consumers, governments, corporations and other 
organizations pursuing sustainability goals are demanding clean energy.
    <bullet>  Traditional baseload generating plants are being retired 
at an unprecedented pace, as evidenced by this chart showing a 
significant shift in generating capacity connected to ITC Midwest's 
transmission system since 2007.

[GRAPHIC] [TIFF OMITTED] T4954A.001


    To meet the demands of customers and policymakers, utilities and 
renewable energy developers are adding wind and solar farms in Iowa and 
across the upper Midwest. MISO, the regional grid operator, reports 
more than 20 gigawatts of renewable energy--enough to power 14 million 
homes--is proposed in Iowa, Minnesota and western Wisconsin.
    The need for major new transmission investments to support the 
future energy system will only grow. Our three largest customers 
announced significant generation transformation plans for the years 
ahead, and at least 30 utilities have made commitments to lower their 
emissions by 80% or more. Investing in transmission now will allow this 
transition to take place while maintaining affordability and enhancing 
system resilience.
    The need for significant new investment in transmission to support 
clean energy and reduce emissions may sound daunting and expensive, but 
it does not need to be. A recent study from Americans for a Clean 
Energy Grid concludes that a ``transmission-first'' approach to clean 
energy deployment will save customers money compared to current 
electricity costs.\1\ Transmission-first means planning and building 
transmission infrastructure and upgrading existing systems in areas 
ripe for developing abundant and cheap wind and solar generation. By 
contrast, the current practice of planning incremental additions to the 
system for each new generation source imposes significantly higher 
costs over the long run.
---------------------------------------------------------------------------
    \1\ Consumer, Employment, and Environmental Benefits of Electricity 
Transmission Expansion
---------------------------------------------------------------------------
in the Eastern U.S. https://cleanenergygrid.org/wp-content/uploads/
2020/10/Consumer-Employment-and-Environmental-Benefits-of-Transmission-
Expansion-in-the-Eastern-U.S..pdf
    Returning to an earlier analogy, the interstate highway system was 
proactively built on a vision of future access and need. If it had been 
built the way transmission is today, based on incremental demand, we 
would not have nationwide highway infrastructure and millions would be 
denied access to its economic benefits. To unlock our energy future, we 
need to begin work today on a transmission system that prioritizes 
renewable resource development, anticipates growth, and expands access 
to reliable, low-carbon electricity for all.
    In addition, investments in transmission can create and support 
thousands of jobs, both directly during construction and over the 
lifetime of the investments. According to a recent report on 
transmission benefits released by the WIRES Coalition and London 
Economics, job creation and economic benefits achieved through 
transmission development can be substantial and long-lasting.\2\
---------------------------------------------------------------------------
    \2\ Repowering America: Transmission investment for economic 
stimulus and climate change. https://wiresgroup.com/repowering-america-
transmission-investment-for-economic-stimulus-and-climate-change/

---------------------------------------------------------------------------
Transmission in Action: MISO Multi-Value Projects (MVPs)

    There are many real-world examples of transmission development 
leading to increased penetration of low-cost renewables. For instance, 
ITC constructed major portions of MISO's Multi-Value Project portfolio 
in the Upper Midwest that were approved in 2011. These 17 high-voltage 
projects were designed to deliver renewable energy to load centers in 
the Midwest to facilitate compliance with state renewable energy 
standards and enhance grid reliability.
    Retrospective analysis of these major projects confirms that they 
have led to significant renewable development, enhanced reliability and 
lower costs for customers. MISO affirmed the savings benefits from the 
MVPs in its most recent Triennial Review, issued in 2017.\3\ That 
review indicated that the MVP portfolio will generate benefits in the 
range of $2.20 to $3.40 for each dollar spent. MISO estimates that the 
average electricity customer in the region will see $33 in annual 
benefits for a $12 per year investment in the entire MVP portfolio.
---------------------------------------------------------------------------
    \3\ MTEP17 MVP Triennial Review.
---------------------------------------------------------------------------
https://cdn.misoenergy.org/
MTEP17%20MVP%20Triennial%20Review%20Report117065.pdf
    The final MVP Project underway is Cardinal-Hickory Creek and it 
will run from Dubuque, Iowa to Madison, Wisconsin. It will enable 42 
generators in the upper Midwest to deliver 7,566 MW of low-cost, 
reliable wind and solar power in the region. During construction and 
installation, which will be done by union labor, the project will 
generate approximately 2,500 jobs and $274 million in economic impacts 
(GDP), according to the NREL's modeling. During operation, it will 
result in 135 permanent jobs and $17 million in annual economic impact.
    As customer demand for low-cost clean energy increases, 
transmission lines like the Cardinal-Hickory Creek project will meet 
the need by providing consumers with access to electricity generated in 
renewable energy-rich areas of Iowa and Minnesota. With the right 
policies in place, this model of transmission development can be 
repeated in the Midwest and across the country.

Investments are Needed to Ensure Resilience and Grid Security

    Reliability is always going to be an important issue for our nation 
as electricity is a key driver for our growth, prosperity, safety and 
security. This importance will only grow as electrification of the 
economy proceeds apace.
    The threats faced by the system are both natural and man-made. The 
array and capabilities of hostile forces seeking to attack the U.S. 
electric grid and destabilize the nation have increased in size and 
sophistication over the past decade.
    To date, ITC has invested approximately $9.8 billion in our 16,000 
miles of transmission lines and about 670 substations to date. 
Significant ongoing, long-term investment is still needed in grid 
security to harden our systems against man-made and natural threats and 
address aging infrastructure, reliability needs, NERC criteria, and 
other infrastructure considerations.
    Grid resilience means increasing our ability to anticipate, 
withstand, recover and adapt to a wide variety of dynamic and material 
risks to our electric systems.
    ITC's systems serve Michigan, Iowa, Minnesota, Illinois, Missouri, 
Kansas and Oklahoma, with a combined peak load exceeding 26,000 
megawatts (MW). These areas frequently experience blizzards, 
windstorms, flooding and other natural disasters. ITC has observed an 
increase in the frequency and severity of these and other extreme 
weather events, as well as their potential to disrupt the reliable 
delivery of energy to customers.
    The widespread power outages caused by last summer's devastating 
derecho in Iowa--estimated by NOAA to cost more than $11 billion in 
damages--and the recent extended sub-freezing temperatures across much 
of the U.S., demonstrate the importance of a resilient and reliable 
electric power grid. Extreme weather events of an intensity comparable 
to the Midwest derecho in August 2020 can no longer be considered 
``black swan'' or one-in-a-hundred-year events.
    Consequently, continued investments in transmission are essential 
to ensure older transmission lines are rebuilt to provide greater 
system resiliency and reliability during extreme weather events. At 
ITC, we are hardening our systems to provide greater redundancy to the 
entire grid, and keep power flowing to consumers during storms.

Investments are Needed to Realize Electrification

    Automakers, states and corporate players have declared ambitious 
transportation electrification commitments--all with a focus on the 
decarbonization of transportation. For example, General Motors 
announced on January 28, 2021, that it plans to phase out gas and 
electric vehicles and offer an all-electric lineup by 2035.
    A study for WIRES conducted by the Brattle Group indicates the 
investment in transmission in the U.S. must rise from $15 billion 
annually today to as much as $40 billion per year between 2031 and 2050 
to meet this electrification challenge.\4\ Other studies (Princeton, 
E3, NREL) have indicated that the transmission system will need to 
double or even triple in size if we are to electrify the economy.
---------------------------------------------------------------------------
    \4\ The Coming Electrification of the North American Economy.
---------------------------------------------------------------------------
https://wiresgroup.com/the-coming-electrification-of-the-north-
american-economy/

Federal Policy and Transmission Investment

    High-voltage transmission is essential both to meeting President 
Biden's goal of decarbonizing the U.S. electricity sector by 2035 and 
to reducing costs. A recent study from the University of California, 
Berkeley and GridLab indicates that achieving a 90% clean-powered grid 
by 2035 could deliver wholesale electricity costs 13% lower than today, 
boosted by about $100 billion in transmission expansion investment.
    Currently, many transmission projects are hampered by severely 
backlogged interconnection queues, outdated planning processes, and 
cost allocation debates that remain polarized. Lead times for large-
scale transmission projects spanning up to a decade or more are 
unacceptable. Policymakers and stakeholders must act swiftly to address 
the regulatory and policy bottlenecks that threaten America's path to a 
cleaner energy future.
    What is needed to meet the challenge? In short, we must address the 
three major policy hurdles to transmission development--planning, cost 
allocation, and permitting. First, as mentioned above, we need to plan 
the system in a way that anticipates future needs and unlocks our 
nation's abundant renewable resource potential. Second, we need to put 
in place cost allocation policies that equitably spread costs to 
beneficiaries of major projects, rather than placing all these costs on 
each incremental generator. Finally, we must ensure that permitting and 
siting processes are efficient and timely without undermining important 
environmental protections.
    As part of this framework for policy reform, President Biden's 
proposal for an Investment Tax Credit for transmission offers a 
valuable tool to help lower costs for large projects and make it easier 
to achieve cost allocation agreements, which is a key hurdle to project 
approval and construction.

Regulatory Improvements Are Also Essential

    While Congress has many tools to address the policy roadblocks 
mentioned above, the Federal Energy Regulatory Commission (FERC) will 
continue to play a central role in moving towards a proactive and 
broadly beneficial grid planning approach.
    To create a policy environment for proactive investments in 
transmission, FERC should:

    <bullet>  Improve planning processes by requiring regions to 
recognize and ``count'' all the benefits of a given transmission 
project;
    <bullet>  Require planning scenarios to include state and corporate 
clean energy goals and realistic estimates for electrification growth;
    <bullet>  Develop new cost allocation policies to equitably and 
expeditiously integrate the significant amount of renewable energy 
projects waiting to be connected to the grid;
    <bullet>  Reform policies that make transmission development slower 
and more complex, especially those processes imposed under the rubric 
of ``competition'';

Conclusion

    ITC supports the bipartisan goal of investing in the nation's 
transmission grid. We stand ready to work with Congress, FERC and 
others to ensure that we can seize this opportunity to improve the 
nation's transmission system, encourage and realize the blessings of 
abundant, affordable clean energy, as well as increase the resilience 
of our energy system. By doing so, we can chart a pathway to a low-
carbon energy system with benefits that are broadly shared across the 
economy. If we fail to act with urgency, the grid could become a 
significant roadblock to climate progress.
    Thank you again for the opportunity to testify before the 
Committee. I look forward to working with Congress and the 
Administration to invest in America's clean energy future.

    Ms. Castor. Thank you, Ms. Apsey.
    Next, Mr. Colston, you are recognized for 5 minutes.

                  STATEMENT OF DONNIE COLSTON

    Mr. Colston. Thank you, Chair Castor, Ranking Member 
Graves, and the members of the Select Committee. My name is 
Donnie Colston. I am the Director of the International 
Brotherhood of Electrical Workers Utility Department. On behalf 
of our President, Lonnie Stephenson, thank you for inviting me 
to testify on this importance of modernizing and expanding the 
electric grid.
    The IBEW is the largest energy union in the United States, 
with 775,000 active members and with roughly 400,000 workers 
employed in generation, transmission, distribution, and 
construction.
    It is said the North American electrical grid is the 
largest machine ever built by human hands. The interconnecting 
web of power plants, end users, and everything in between fuels 
the $22 trillion U.S. economy. However, our current electric 
distribution system, which was primarily built in the 1960s and 
1970s, and functions on a regional or localized basis, needs 
significant replacements and upgrades now and in the coming 
years to maintain an enhanced system performance to deliver 
new, cleaner sources of power generation from its source to 
customers. The need to modernize and expand the electric grid 
has become even more pressing due to climate change and the 
need to reduce greenhouse emissions.
    Any effort to markedly increase clean and renewable 
generation onto the electric grid will require a significant 
increase in the development of new transmission lines. At the 
IBEW, we see the need to modernize and expand the electric grid 
as a major work opportunity for our members. Reports released 
this year by Americans for a Clean Energy Grid and American 
Council on Renewable Energy found that building out electric 
transmission to deliver new renewable and clean generation and 
increase grid reliability would create between 240,000 to 
600,000 direct jobs. The IBEW firmly believes our linemen are 
the best trained and most experienced workers to fill this 
anticipated need.
    To provide one example, the IBEW is working with Avangrid 
to build the New England Clean Energy Connect. The NECEC is a 
$950 million investment that will deliver 1,200 megawatts of 
renewable hydropower from Canada to the New England energy 
grid. Once built, the project will employ around 600 IBEW 
members and create an additional 800 indirect jobs during the 
construction phase.
    As a strong supporter of expanding and modernizing the 
electric grid, the IBEW supports policies that will enhance 
grid reliability and bring cleaner power generation to 
consumers and provide steady work for our members.
    Siting and permitting are two of the biggest barriers to 
transmission construction. IBEW in general is supportive of 
policy changes that will improve the permitting process and 
ensure project applications are finalized in a reasonable, 
expeditious manner.
    IBEW members are interested in blue-collar quality jobs, 
jobs that provide family-supporting wages with good benefits. 
The IBEW supports policies that would ensure federally funded 
construction and infrastructure projects meet the highest labor 
standards, policies that include Davis-Bacon Act and prevailing 
wage requirements and Buy American standards for key materials 
and products.
    Additionally, these labor standards need to extend to all 
forms of Federal support, including tax credits, such as the 
investment tax credit or the production tax credit. The IBEW 
would also include tax credits to be paired, as called for in 
the American Jobs Plan, with a fair choice to join a union and 
bargain collectively.
    With the Federal Government taking the decisionmaking lead, 
market predictability will improve, as will the IBEW's ability 
to plan for training the next generation of construction 
linemen. It takes 3 years to train a journeyman lineman to 
perform transmission line construction and maintenance, and we 
anticipate the need for at least 50,000 new power linemen over 
the next 10 years. While projects are held up, we are losing 
valuable training time.
    The IBEW asks for the Select Committee's leadership on 
modernizing and expanding the electric grid, bringing new clean 
energy generation to consumers, ensuring grid reliability are 
goals of all Americans that can and should support. We remain a 
ready partner with our employers and elected officials from 
both sides of the aisle.
    Thank you for the opportunity to participate in today's 
hearing. I am happy to answer any questions you may have.
    [The statement of Mr. Colston follows:]

                  Opening Statement of Donnie Colston 
                      Director, Utility Department

            International Brotherhood of Electrical Workers

           Before the Select Committee on the Climate Crisis

                     U.S. House of Representatives

                              May 20, 2021

    Chair Castor, Ranking Member Graves, and the members of the Select 
Committee, my name is Donnie Colston. I am the Director of the 
International Brotherhood of Electrical Workers (IBEW) Utility 
Department. On behalf of our president, Lonnie Stephenson, thank you 
for inviting me to testify on the importance of modernizing and 
expanding the electric grid.
    The IBEW is the largest energy union in the United States, with 
775,000 active members and with roughly 400,000 workers employed in 
generation, transmission, distribution, and construction all in some 
way related to the electrical grid.
    It is said that the North American electrical grid is the largest 
machine ever built by human hands. The interconnecting web of power 
plants, end users and everything in between fuels the $22 trillion U.S. 
economy. However, our current electric distribution system, which was 
primarily built in the 1960's and 70's and functions on a regional or 
localized basis, needs significant replacements and upgrades now and in 
the coming years to maintain and enhance system performance and deliver 
new, cleaner sources of power generation from its source to customers. 
The need to modernize and expand the electric grid has become even more 
pressing due to climate change and the need to reduce greenhouse gas 
emissions. Any effort to markedly increase clean and renewable 
generation onto the electric grid will require a significant increase 
in the development of new transmission lines.
    At the IBEW, we see the need to modernize and expand the electric 
grid as a major work opportunity for our members. A recent report by 
the Americans for a Clean Energy Grid found that construction of 22 
identified transmission projects would create 240,000 direct jobs.\1\ A 
separate report by the American Council on Renewable Energy stated that 
an investment tax credit for regionally significant transmission lines 
would create 600,000 transmission jobs and at least 330,000 
transmission jobs for ``projects weighted by odds of success.'' \2\ 
These jobs projections, if true, would be a boon for our members and 
the communities that host these critical infrastructure investments.
---------------------------------------------------------------------------
    \1\ Michael Goggin, Rob Gramlich, and Michael Skelly, 
``Transmission Projects Ready to Go: Plugging into America's Untapped 
Renewable Resources,'' (April 2021), https://
---------------------------------------------------------------------------
cleanenergygrid.org/wp-content/uploads/2019/04/Transmission-Projects-
Ready-to-Go-Final.pdf
---------------------------------------------------------------------------
    \2\ Michael Goggin and Rob Gramlich, ``Investment Tax Credit for 
Regionally Significant Electricity Transmission Lines,'' (May 2021), 
https://acore.org/wp-content/uploads/2021/05/Investment-Tax-Credit-for-
Regionally-Significant-Electricity-Transmission-Lines-ACORE.pdf.
---------------------------------------------------------------------------
    To provide one example, IBEW is working with Avangrid to build the 
New England Clean Energy Connect (NECEC). The NECEC is a $950 million 
investment that will deliver 1,200 megawatts of renewable hydropower 
from Canada to the New England energy grid. Once built, the NECEC would 
be New England's largest source of renewable energy and help lower 
energy costs for consumers. The project will employ around 600 IBEW 
members and create an additional 800 indirect jobs during the 
construction phase. It is estimated that $440 million in worker 
compensation will be provided during construction, a significant 
injection of money for rural communities. The project will also provide 
notable benefits to Maine residents, including an $18 million annual 
increase in host community property tax revenues, $140 million in 
consumer rate relief and $15 million for fiber optic and broadband 
expansion for western Maine.\3\
---------------------------------------------------------------------------
    \3\ New England Clean Energy Project,
---------------------------------------------------------------------------
https://www.necleanenergyconnect.org/project-benefits/#developBENEFITS.
    A second transmission project IBEW members are ready to build is 
the Cardinal-Hickory Creek Transmission Line Project that is being 
developed by American Transmission Company, ITC Midwest and Dairyland 
Power Cooperative. The project is one of 17 high-voltage transmission 
lines that the Midcontinent Independent System Operator (MISO) approved 
to improve the reliability and flexibility of the regional electric 
grid. The 102-mile, 345-kilovolt line would connect renewable wind 
generation in Iowa to consumers in Wisconsin and throughout the 
Midwest. This project will employ over 100 IBEW members in northeast 
Iowa and southern Wisconsin and, like the NECEC, is an important 
investment in rural America.
    As a strong supporter of expanding and modernizing the electric 
grid, the IBEW supports several policy proposals we believe will 
enhance grid reliability, bring cleaner power generation to consumers, 
and provide steady work for our members. The IBEW supports many of the 
proposals laid out in President Biden's American Jobs Plan. In 
particular, our union supports the administration's call for a $100 
billion investment in the nation's power infrastructure. This includes 
the creation of an investment tax credit (ITC) for regionally 
significant electrical transmission projects. As noted earlier, a 
transmission ITC could be a important tool to incentivize the buildout 
of power lines that would provide significant employment opportunities 
for our members. However, we would call on policymakers to ensure that 
a transmission ITC is broadly available and aimed at getting 
transmission lines built.
    The American Jobs Plan also calls for the creation of a new Grid 
Deployment Authority that would allow for ``better leverage of existing 
rights-of-way--along roads and railways--and supports creative 
financing tools to spur additional high priority, high-voltage 
transmission lines.'' \4\ Our union is supportive of the 
administration's efforts to become more engaged in facilitating 
transmission construction and use the federal government's authority to 
cut through existing roadblocks to build power lines of regional and 
national significance. Relatedly, the IBEW supports the Department of 
Energy's recent announcement of two financing tools intended to 
facilitate transmission line construction. These are the Western Area 
Power Administration Transmission Infrastructure Program's $3.25 
billion fund for transmission projects and making $5 billion available 
for transmission projects through the Energy Department's Loan Programs 
Office. We hope these two new funding opportunities will help overcome 
one of the biggest hurdles to power line construction: cost allocation.
---------------------------------------------------------------------------
    \4\ The American Jobs Plan, https://
---------------------------------------------------------------------------
www.whitehouse.gov/briefing-room/statements-releases/2021/03/31/fact-
sheet-the-american-jobs-plan.
    Our union supports the use of existing rights-of-way to facilitate 
the siting of transmission lines. Our members are familiar with the 
difficulties surrounding the siting of power line and are generally 
supportive of policies that will help overcome barriers to grid 
modernization and expansion. However, transmission construction should 
not be unduly impeded if an existing right-of-way is not available for 
a proposed transmission project.
    Siting and permitting are two of the biggest barriers to 
transmission construction. The IBEW, in general, is supportive of 
policy changes that will improve the permitting process and ensure 
project applications are finalized in a reasonably expeditious manner. 
There are recommendations from the Majority Staff's 2020 Report in this 
area that would help facilitate the siting and permitting process. 
These include the recommendation that Congress should amend the Federal 
Power Act to clarify that the Federal Energy Regulatory Commission 
(FERC) may exercise backstop siting authority for an interstate 
electric transmission line. We are also supportive of the proposal to 
authorize federal funding for the Department of Energy to provide 
technical assistance for state, local and tribal authorities to conduct 
transmission planning and review applications of proposed transmission 
projects.\5\
---------------------------------------------------------------------------
    \5\ House Select Committee on the Climate Crisis, ``Solving the 
Climate Crisis,'' (June 2020),
---------------------------------------------------------------------------
https://climatecrisis.house.gov/sites/climatecrisis.house.gov/files/
Climate%20Crisis%20Action%20Plan.pdf.
    The IBEW is not just interested in job numbers--our members are 
interested in job quality. Many of our members join the IBEW due to our 
union's longstanding record of securing family-supporting wages with 
good benefits and a strong working relationship with our employers. For 
these reasons, the IBEW supports the Select Committee's 2020 Majority 
Staff Report recommendation to ``ensure federally funded construction 
and infrastructure projects meet the highest labor standards.'' \6\ We 
agree wholeheartedly with the Majority Staff Report that federal 
spending should include standards such as extending Davis-Bacon Act 
prevailing wage requirements and Buy America standards for key 
materials and products. Additionally, these labor standards need to 
extend to all forms of federal support, including tax credits such as 
the ITC and production tax credit (PTC). The IBEW would also include 
that tax credits be paired, as called for in the American Jobs Plan, 
with a ``fair choice to join a union and bargain collectively.'' \7\
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ The American Jobs Plan, https://
---------------------------------------------------------------------------
www.whitehouse.gov/briefing-room/statements-releases/2021/03/31/fact-
sheet-the-american-jobs-plan.
    With the federal government taking the decision-making lead, market 
predictability will improve, as will the IBEW's ability to plan for 
training the next generation of construction linemen. It takes three 
years to train a journeyman lineman to perform transmission line 
construction and maintenance, and we anticipate the need for at least 
50,000 new power linemen over the next 10 years. While projects are 
held up, we are losing valuable training time.
    The IBEW asks for the Select Committee's leadership on modernizing 
and expanding the electric grid. Bringing new, clean generation to 
consumers and ensuring grid reliability are goals that all Americans 
can and should support. We remain a ready partner with our employers 
and elected officials from both sides of the aisle. Thank you for the 
opportunity to participate in today's roundtable. I am happy to answer 
any questions you may have.

    Ms. Castor. Thank you very much.
    Ms. Fisher, you are recognized for 5 minutes for your 
testimony.

               STATEMENT OF EMILY SANFORD FISHER

    Ms. Fisher. Good morning, Chair Castor, Ranking Member 
Graves, and members of the Select Committee. My name is Emily 
Fisher, and I am here today on behalf of the Edison Electric 
Institute. Thank you for the opportunity to speak about 
modernizing and expanding the energy grid. I am honored to be 
here with my fellow witnesses.
    EEI is the association that represents all U.S. investor-
owned electric companies. Our members provide electricity for 
more than 220 Americans and operate in all 50 States and the 
District of Columbia. Collectively, the electric power industry 
supports more than 7 million jobs in communities across the 
country. Our members deliver the safe, reliable, affordable, 
and clean energy that powers our economy and enhances the lives 
of all Americans.
    EEI member companies are leading a clean energy 
transformation. Carbon emissions from the U.S. electric power 
sector are at their lowest level in more than 40 years, and we 
are 40 percent below 2005 levels as of year end 2020. At the 
same time, 40 percent of the electricity that serves customers 
now comes from clean, carbon-free resources, including nuclear 
energy, hydropower, wind, and solar energy.
    Our members are united in their commitment to get the 
energy they provide as clean as they can, as fast as they can, 
without compromising the reliability and affordability that our 
customers value. To this end, EEI's members will continue to 
reduce their emissions in future years with more than two dozen 
members committing to reach zero or net-zero carbon emissions 
by 2050 or faster. This cleaner electricity will play a key 
role in reducing emissions economywide, particularly in the 
transportation, industrial, and building sectors through 
increased electrification.
    Electric transmission infrastructure is the backbone of the 
nation's energy grid and will be critical in facilitating the 
continued transition to clean energy. Our industry is the 
nation's most capital intensive, and since 2010, EEI's members 
have invested more than $1 trillion to build smarter energy 
infrastructure and to integrate more clean energy into the grid 
affordably, reducing both emissions and costs.
    The transmission system also helps optimize the energy 
grid's performance, reducing congestion, enabling the 
deployment of new technologies, and enhancing reliability and 
resiliency.
    The benefits of transmission are not in dispute, and there 
is broad agreement that more transmission investment is needed 
and is needed relatively quickly to meet clean energy 
reliability and resilience goals. Despite this broad agreement 
that we need more transmission, the pace of transmission 
development is slow. Transmission projects typically take 7 to 
10 years to plan, site, permit, construct, and energize. Yet we 
have many examples of projects that have taken more than a 
decade from conception to completion and just as many examples 
of those proposed projects that were abandoned because progress 
was too slow and too costly.
    Litigation can be a significant factor in these delays, and 
groups that support clean energy often oppose the 
infrastructure necessary to integrate more of it.
    Our member companies and our labor partners can help build 
the transmission needed to meet and accelerate the achievement 
of clean energy goals. Unfortunately, the way the nation plans, 
permits, and pays for transmission are significant obstacles to 
building the infrastructure we need quickly. Making changes 
that align these processes with long-term clean energy goals 
will not be easy, but it is essential. I offer some high-level 
observations about what we may be able to do to deploy 
transmission more quickly.
    With respect to planning, current regional planning 
processes are hindering, not helping, stakeholders identify 
necessary projects and get them built. Existing planning 
frameworks are too narrow in terms of scope and scale. Planning 
should be oriented toward public policy goals and priorities 
and should be able to take into consideration future 
electrification scenarios.
    Projects can and should serve multiple goals, from clean 
energy integration and improved reliability, to increased cost 
efficiency and increased resilience. It is also essential that 
frameworks focus on getting all stakeholders, including states 
and state economic regulators, on the same page with respect to 
goals and benefits as early as possible to ensure that proposed 
projects can move forward quickly once identified, both with 
respect to permitting and cost allocation.
    With respect to permitting, in order to build large-scale 
transmission, a host of state and Federal approvals are needed. 
For example, critical clean energy infrastructure frequently 
requires Federal permits that trigger environmental reviews 
under the National Environmental Policy Act. These can take a 
really long time to complete and can be the focus of even more 
protracted litigation. EEI supports a NEPA process that is 
clear, transparent, and as efficient as possible, while meeting 
all environmental requirements.
    Perhaps one of the most contentious issues is how to pay 
for necessary new transmission infrastructure. Current 
processes focus on assigning costs to those customers who 
benefit immediately and directly from the investment. This does 
not take into consideration the broader benefits of 
transmission for all customers.
    To remove a critical obstacle to increased investment, it 
may be necessary to broaden the scope of benefits and 
beneficiaries considered, particularly as the transmission 
system, the generation resource mix, and policy goals change 
and are expected to change over time. As noted, getting all 
stakeholders on the same page with respect to the need for and 
the benefits of proposed transmission will be essential.
    There are other ways to address the cost of transmission. 
Grants and other cost-sharing mechanisms to help pay for 
measures that will harden the energy grid and make it more 
resilient in the face of wildfires, hurricanes, and other 
natural disasters can help reduce cost pressures on customers, 
particularly when many of our customers are still recovering 
from the economic impacts of the pandemic.
    Increased transmission investment is essential to meeting 
our nation's and our industry's clean energy goals. Our members 
are committed to investing in the energy grid and continuing to 
make it smarter, cleaner, stronger, more dynamic, and more 
secure. We look forward to working with this committee and 
Congress to help achieve these goals.
    Thank you again for this opportunity, and I look forward to 
any questions you may have.
    [The statement of Ms. Fisher follows:]

                   Statement by Emily Sanford Fisher

                General Counsel, Corporate Secretary & 
                  Senior Vice President, Clean Energy

                       Edison Electric Institute

                               Before the

              House Select Committee on the Climate Crisis

                              May 20, 2021

    Good morning Chair Castor, Ranking Member Graves, and members of 
the Select Committee. My name is Emily Fisher, and I am here today on 
behalf of the Edison Electric Institute (EEI). Thank you for the 
opportunity to speak about modernizing and expanding the energy grid. I 
am honored to be here with Linda Apsey, President and Chief Executive 
Office of EEI member company, ITC Holdings, and with a representative 
of our labor partners, Donnie Colston from the International 
Brotherhood of Electrical Workers.
    EEI is the association that represents all U.S. investor-owned 
electric companies. Our members provide electricity for more than 220 
million Americans and operate in all 50 states and the District of 
Columbia. Collectively, the electric power industry supports more than 
7 million jobs in communities across the country. EEI's member 
companies deliver the safe, reliable, affordable, and clean energy that 
powers our economy and enhances the lives of all Americans.
    EEI's member companies are leading a clean energy transformation. 
Thanks largely to the efforts of EEI's members, carbon emissions from 
the U.S. electric power sector are at their lowest level in more than 
40 years and were 40 percent below 2005 levels as of year-end 2020. At 
the same time, 40 percent of the electricity that serves customers now 
comes from clean, carbon-free resources, including nuclear energy, 
hydropower, wind, and solar energy.
    Along with significant reductions in carbon emissions and increases 
in clean energy, America's electric companies have made equally 
significant reductions in emissions of more localized air pollution, 
which improves the health and well-being of the communities that our 
member companies serve. Since 1990, our industry has cut sulfur dioxide 
emissions by 95 percent and nitrogen oxides emissions by 88 percent. As 
a result of the Mercury and Air Toxics Standards and other Clean Air 
Act regulations, from 2010 to 2017, the power sector has reduced 
mercury emissions by 86 percent and total emissions of hazardous air 
pollutants by 96 percent. Nationally, total power sector mercury 
emissions have been reduced by 95 percent over the period 1990 to 2020.
    These trends in emissions reductions and the deployment of clean 
energy will continue. EEI's member companies are united in their 
commitment to get the energy they provide as clean as they can as fast 
as they can, without compromising the reliability and affordability 
that our customers value. To this end, EEI's members will continue to 
reduce their emissions in future years, with more than two dozen 
members committing to reach zero or net-zero carbon emissions by 2050 
or earlier.
    A wide range of factors are driving the clean energy 
transformation, including declining costs for natural gas and renewable 
energy resources, technological improvements, changing customer 
expectations, federal and state regulations and policies, and the 
increasing use of distributed energy resources. As a result, the mix of 
resources used to generate electricity in the United States has changed 
dramatically over the last decade. This cleaner electricity will play a 
key role in reducing emissions economy-wide--particularly in the 
transportation, industrial, and building sectors--through increased 
electrification.

Transmission and the Clean Energy Transformation

    Electric transmission infrastructure is the backbone of the 
nation's energy grid and will be critical in facilitating the continued 
transition to clean energy. Our industry is the nation's most capital-
intensive industry, and, since 2010, EEI's member companies have 
invested more than $1 trillion to build smarter energy infrastructure 
and to integrate more clean energy into the energy grid affordably, 
reducing both emissions and costs. These significant investments ensure 
that customers receive the electricity they need, when they need it, 
safely and reliably. The transmission system also helps optimize the 
energy grid's performance, reducing congestion, enabling the deployment 
of new technologies, and enhancing reliability and resiliency.
    In addition, transmission investments create jobs and provide a 
range of other benefits. They offer communities access to lower-cost, 
cleaner sources of electricity that often are located far from densely 
populated urban centers.\1\ They support the economic viability of 
clean energy projects by reducing costly curtailments of service due to 
congested pathways and overproduction, which allows more clean energy 
to reach more end-use customers.\2\ Electric transmission investments 
also are essential to enabling greater transportation 
electrification.\3\
---------------------------------------------------------------------------
    \1\ See, e.g., American Council on Renewable Energy (ACORE), Macro 
Grid Initiative, https://acore.org/macro-grid-initiative/
#1601561682191-976f8114-ec26.
    \2\ See World Economic Forum, Why Transmission and Distribution Are 
the Clean Energy Transition's Secret Weapons (Jul. 16, 2020), https://
www.weforum.org/agenda/2020/07/transmission-distribution-clean-energy-
transition/.
    \3\ See Weiss et al., The Coming Electrification of the North 
American Economy--Why We Need A Robust Transmission Grid, prepared for 
WIRES (Mar. 6, 2019), https://wiresgroup.com/the-coming-
electrification-of-the-north-american-economy/.
---------------------------------------------------------------------------
    The benefits of transmission are not in dispute, and there is broad 
agreement that more transmission investment is needed and is needed 
relatively quickly when thinking about the timeline for building 
critical infrastructure.
    According to a study by Princeton University, to achieve a zero-
carbon future by 2050, the existing high-voltage transmission capacity 
will need to expand by approximately 60 percent by 2030 and triple 
compared to 2020 capacity through 2050 to connect more wind and solar 
energy resources. Total capital investment in transmission will need to 
reach $360 billion through 2030 and $2.4 trillion by 2050.\4\ The 
Brattle Group, meanwhile, estimates that, to meet ambitious clean 
energy goals and low-carbon solutions around the country, $300 to $700 
in transmission investment is needed per each kilowatt (kW) of large-
scale renewable energy capacity added to the system.\5\
---------------------------------------------------------------------------
    \4\ See E. Larson, C. Greig, J. Jenkins, E. Mayfield, A. Pascale, 
C. Zhang, J. Drossman, R. Williams, S. Pacala, R. Socolow, EJ Baik, R. 
Birdsey, R. Duke, R. Jones, B. Haley, E. Leslie, K. Paustian, and A. 
Swan, Net-Zero America: Potential Pathways, Infrastructure, and 
Impacts, interim report, Princeton University, Princeton, NJ, p. 106 
(Dec. 15, 2020).
    \5\ See Weiss et al., n. 1, supra.

---------------------------------------------------------------------------
Obstacles to Needed Transmission Investments

    Despite this broad agreement that we need more transmission this 
decade to meet clean energy, reliability, and resilience goals, the 
pace of transmission development is slow. Transmission projects 
typically take 7 to 10 years to plan, site, permit, construct, and 
energize--yet we have many examples of projects that have taken more 
than a decade from conception to completion, and just as many examples 
of proposed transmission projects that were abandoned because progress 
was too slow and too costly. Litigation can be a significant factor in 
these delays, too, and groups that support clean energy often oppose 
the infrastructure necessary to integrate more of it.
    EEI's member companies and our labor partners can help build the 
transmission needed to meet and accelerate the achievement of clean 
energy goals. Unfortunately, the way the nation plans, permits, and 
pays for transmission are significant obstacles to building the 
infrastructure we need quickly. Making changes that align these 
processes with long-term clean energy goals will not be easy but is 
essential. Local communities, states, Tribes, and the federal 
government all have a role, and many stakeholders' views and 
perspectives must be considered. Today, I offer some high-level 
observations about what the federal government may be able to do to 
help deploy more transmission more quickly.

Planning

    Current regional planning processes are hindering, not helping, 
stakeholders identify necessary projects and get them built. Existing 
planning frameworks are too narrow in terms of scope and scale. 
Planning should be oriented toward policy goals and priorities. 
Planning also should be able to take into consideration longer-term 
clean energy goals at the state and federal levels, as well as future 
electrification scenarios, and should take a broader approach to costs 
and benefits. Transmission projects can and should serve multiple 
goals, from clean energy integration and improved reliability to 
increased cost-efficiency and increased resilience.
    It also is essential that planning frameworks focus on getting all 
stakeholders, including states and state economic regulators, on the 
same page with respect to goals and benefits as early as possible in 
the process to ensure that proposed projects can move forward quickly 
once identified, both with respect to permitting and cost allocation. 
This will be especially important in the context of inter-regional 
planning.
    In general, planning frameworks should take a more holistic 
approach to assessing the need for, and benefits of, transmission. They 
also should be flexible enough to take into consideration regionally 
important issues, such as wildfire mitigation or offshore wind 
interconnection. While the Federal Energy Regulatory Commission (FERC) 
has indicated that it intends to revisit planning frameworks and 
requirements, congressional direction may be essential in reorienting 
the planning process in a timely way.
    In addition, the Department of Energy, in coordination with the 
National Labs, could be directed to provide some assistance by 
conducting a nationwide analysis to identify the areas with the most 
potential and need for transmission projects to address clean energy 
and system resilience needs.

Permitting

    In order to build large-scale transmission, a host of state and 
federal approvals are needed to site and permit projects. The federal 
government can take several steps to reduce the time it takes to 
receive these permits, consistent with environmental obligations and 
requirements.
    For example, critical clean energy infrastructure projects 
frequently require federal permits that trigger environmental reviews 
under the National Environmental Policy Act (NEPA), which can take 
years to complete and increasingly have become the focus of even more 
protracted litigation. This significantly adds to the time and costs of 
critical transmission projects necessary to meet these clean energy 
objectives. EEI supports a NEPA process that is clear, transparent, and 
as efficient as possible while meeting all environmental requirements.
    To that end, there are four process revisions that can contribute 
to an efficient, environmentally sound, and defensible NEPA review:

    1.  Tiering: Utilizing ``tiering''--considering existing studies 
and environmental analyses in the NEPA process--allows federal agencies 
to build upon these previously conducted environmental studies, as well 
as decisions made during earlier state or local public reviews, instead 
of starting from scratch.
    2.  Categorical Exclusions (CE): Agencies may now apply a CE 
established under another agency's NEPA procedures, if the action 
covered by that CE and the adopting agency's proposed action are 
substantially the same. This sensible step reduces duplication and 
should be allowed to continue.
    3.  Greenhouse Gas (GHG) Emissions Analysis: GHG emissions are 
relevant to NEPA analyses, and considering such emissions is 
appropriate in the context of environmental reviews designed to ensure 
well-informed decision-making. Agencies should consider existing 
emissions estimates when relevant, including sector-wide estimates, 
when assessing GHG emissions impacts. For example, transmission 
projects that displace emissions by enabling more clean energy 
integration should be recognized as such, even if that requires a 
broader assessment of emissions impacts.
    4.  Applicant Engagement in the NEPA Process: Allowing permit 
applicants and their contractors to participate in the preparation of 
documents for environmental reviews promotes efficiency by utilizing 
those in the best position to provide critical information about 
proposed projects to regulators. Applicants and contractors have ready-
made information regarding project alternatives and potential effects, 
and they possess significant environmental and technical resources and 
engineering information that could enable more efficient and timely 
preparation and evaluation of environmental reviews.

    Another option to help expedite siting and permitting for some 
transmission projects includes incentives to use existing rights-of-
way, including those for transportation.
    Transmission permitting and siting is complex. These suggestions 
would not solve all delays if implemented, but they could help expedite 
the process.

Paying

    Perhaps one of the most contentious issues is how to pay for 
necessary new transmission infrastructure. Current processes focus on 
assigning costs to those customers who benefit from the investment, but 
some states that serve as conduits for new transmission often are 
concerned about whether they will see benefits from these projects. 
This process does not take into consider the broader benefits of 
transmissions for all customers.
    To remove a critical obstacle to increased investment, it may be 
necessary to broaden the scope of benefits and beneficiaries 
considered, particularly as the transmission system, the generating 
resource mix, and policy goals change and are expected to change over 
time. As noted, getting all stakeholders on the same page with respect 
to the need for--and benefits of--proposed transmission projects during 
the planning phase will be critical in determining how to allocate 
costs fairly.
    There are other ways to address the costs of transmission. Grants 
to help pay for measures that will harden the energy grid and make it 
more resilient in the face of wildfires, hurricanes, and other natural 
disasters can help to reduce cost pressures on customers, particularly 
when many customers are still recovering from the economic impacts of 
the COVID-19 pandemic.
    EEI's member companies take their commitment to providing reliable 
and resilient electricity seriously and are investing billions to 
harden the grid--they are installing concrete poles, moving substations 
to higher ground, putting technology on the grid that can sense fire 
and shut off a power line, and more. Federal dollars could help 
accelerate these adaptation investments. In addition, some federal 
funds can support ongoing efforts to modernize the energy grid to use 
the latest technologies and to improve two-way communication on the 
system with everything from smart meters to appliances to private solar 
and storage systems.

Conclusion

    Increased transmission investment is essential to meeting our 
nation's and our industry's clean energy goals. A robust transmission 
system also enables electric companies to deliver energy where it is 
needed, to integrate more clean energy into the energy grid, to enhance 
the reliability and resiliency of the grid, and to lower the cost of 
delivering energy by reducing congestion. EEI's member companies are 
committed to investing in the energy grid and to continuing to make it 
smarter, cleaner, stronger, more dynamic, and more secure. We look 
forward to working with this Committee and Congress to help achieve 
these goals.
    Thank you again for the opportunity to testify. I look forward to 
any questions you may have.

    Ms. Castor. Thank you very much.
    Mr. Skelly, you are recognized for 5 minutes. Welcome.

                  STATEMENT OF MICHAEL SKELLY

    Mr. Skelly. Thank you.
    My name is Michael Skelly, and I am the founder and CEO of 
Grid United, and we are an early-stage transmission development 
company based right here in Houston, Texas, which, as many of 
you know, is emerging as a leader in energy transition. And I 
have been involved over the last 25 years in many wind 
generation and solar generation projects, as well as lots of 
transmission lines, including some that, as Ms. Fisher pointed 
out, are now in construction and others that got killed off 
because of too many delays and too many obstacles to get them 
done.
    I thought I would focus a little bit on what has happened 
in the last 10 years and the opportunity set that is before us.
    And the first thing I would like to talk about is the 
exciting companies that have emerged over the last decade that 
use situational awareness diagnostics and ultrafast processing 
power to get better use out of the existing grid. And these 
technologies commonly known as grid enhancing technologies have 
emerged. A number of companies have emerged based here in the 
U.S. that will help us get better--basically, move more power 
through the existing grid, and that is something that we can do 
and that Congress can act on in the near future using existing 
authorities. So I would encourage you all to focus on that.
    Next up, I co-authored the study that a number of folks 
have referred to that identified 22 shovel-ready, high-voltage 
transmission projects around the country being developed by 
folks like ITC, Ms. Fisher's member companies, and a number of 
independent developers of transmission lines. And over the last 
decade, these companies have slogged through the processes 
that, as we all know, take a very, very long time, and they are 
ready to go. And the criteria that we use to identify these 
projects was, okay, what can we get underway in the next 24 to 
36 months? And I am happy to talk in detail about any of those 
projects or the processes they are going through.
    But what we need is some successes, and as we all know, 
success begets success in many walks of life, including 
infrastructure development. And this opportunity set that is 
before us now, with a little bit of a push from things like the 
investment tax credit, we can get these projects done. They 
will unlock tens of thousands of megawatts of new generation 
projects, put lots of IBEW members to work, and boost today's 
level of renewable energy penetration to even higher levels, 
and help address some of the reliability issues that we have 
become painfully aware of, particularly in places like here in 
Texas.
    And while the--the other point that I would like to sort of 
highlight again is that the--Ms. Apsey pointed out some of the 
problems with the current transmission planning process. I 
won't reiterate those, but suffice it to say that we need 
planning processes that take into account all of the benefits 
that we get from transmission, and we need to think in a much 
broader fashion about the public policy goals that the 
transmission investments can help us achieve.
    We have largely solved the problem over the last 30 years 
with continued investments in R&D and scaled up deployment of 
renewables, and we now know how to produce wind power and solar 
power incredibly inexpensively. We have solved that challenge. 
The big challenge ahead of us now is building the grid so that 
everybody in the country can get access to those cheap 
resources. And as we build out the grid, we will do what we 
have done here in Texas when we did a big transmission expanse 
in the mid-2000s, we will help drive economic development, come 
up with a cleaner energy mix, and bring down costs to consumer.
    So thank you very much, and look forward to your questions.
    [The statement of Mr. Skelly follows:]

                      Statement by Michael Skelly

                            Founder and CEO

                            Grid United, LLC

        Before the House Select Committee on the Climate Crisis

                              May 20, 2021

    Good morning Chair Castor, Ranking Member Graves, and members of 
the Select Committee, and thank you for the opportunity to testify 
before you today.
    My name is Michael Skelly and I am founder and CEO of Grid United, 
an early stage transmission development company. I have spent the last 
25 years developing a wide variety of energy projects. I got involved 
in the US wind industry in the late 90's, and helped put together 
thousands of megawatts of new wind projects. In 2009 I started a 
company called Clean Line Energy which focused on interstate power 
lines to move renewable energy around the country. We successfully 
permitted a three-state high voltage, direct current transmission line. 
We sold off our projects several years ago to other developers who are 
carrying them forward. Indeed, our Western Spirit project is now under 
construction in New Mexico.
    I live in Houston, Texas, which is fast becoming a national center 
for renewable energy development. The combination of an entrepreneurial 
ethos, abundant wind and solar in Texas' wide open spaces, an open 
access grid, and policy innovation that began with then Governor George 
Bush and continued with Governor Rick Perry's push to expand Texas' 
transmission system, has made Texas a leader in wind and solar, and we 
are now witnessing an explosion in energy storage installations.
    The recent outages of winter storm Uri are not the subject of 
today's hearing, but must be mentioned. As we all know, for four days 
in February, 4.5 million Texans became harshly aware of the grid and 
its critical importance to everything we do. Importantly, Texas' high 
voltage grid itself held up quite well and few outages were attributed 
to transmission problems, but generators, including gas, nuclear, coal 
and wind generators all had problems. No generation source covered 
itself in glory. One key lesson from the Texas experience is that the 
transmission investments initiated by Governor Perry made a bad 
situation less awful. Another key lesson is that networked systems 
perform better than isolated systems. Personally, while I believe 
Texas' electrical independence serves the state well and has enabled us 
to build more generation quickly, we would be well served by more 
asynchronous DC ties to neighboring states. Those interregional 
transmission ties would allow Texas to export its energy bounty in 
times of surplus, help our neighbors when their supplies are tight, and 
enhance our reliability by importing when we need it. All regions need 
to perform scenario planning for extreme weather, and if they do, they 
will all find significant benefit to such interregional ties. Anything 
Congress can do that simultaneously recognizes Texas' independent 
streak while facilitating connections to adjacent control areas will 
serve us all well.
    In April of this year, I co-authored a study identifying 22 shovel-
ready high voltage transmission projects around the country that would 
begin construction in the near term if more workable transmission 
policies, like the tax credit, were enacted. These projects would 
create over 1.2 million jobs across the transmission, wind, and solar 
sectors; interconnect 60,000 MW of new renewable capacity; and increase 
America's solar and wind generation by 50% from current levels. A 
decade ago, we as a country did not have such a fantastic opportunity 
set in front of us. However, in the ensuing years, both utilities and 
independent developers have been sorting through the nettlesome siting, 
permitting, cost allocation and grid connection challenges. I am firmly 
convinced that success will beget success in transmission, and pushing 
these 22 projects over the top will invigorate efforts across the 
country--resulting in more jobs, enhanced domestic supply chains, and 
big construction jobs, especially in our hard hit rural areas.
    Aside from the economic benefits these projects embody, they also 
represent improved health outcomes for residents of population centers 
living near fossil-burning power plants. Transmission plays a role in 
replacing the carbon and other pollution in these population centers 
with renewable sources of energy, thereby improving air quality for 
residents, and addressing long-standing environmental injustices.
    Before I talk about policy mechanisms that can help us improve 
reliability and get more clean energy on the grid, I'd like to first 
address the critical importance of getting as much bang for the buck 
for the investments we have made in the existing grid. Over the last 
decade, a number of exciting companies, in some cases with public R&D 
support, have developed ``Grid Enhancing Technologies''. These 
companies harness the power of situational awareness and ultrafast 
processing of information to adjust the throughput of existing wires, 
allowing them to get more power to market more efficiently. A number of 
these technologies were not mature a decade ago, but now they are, and 
most of the promising companies in this space are based here in the 
United States.
    Forward thinking utilities like Xcel, MidAmerican and National Grid 
are deploying them already. FERC Chair Richard Glick and his 
predecessor have taken an active interest in encouraging utilities and 
system operators to adopt these technologies. Congress could play a 
critical role by appropriating funds to share in the cost of their 
deployment--an approach that will save customers money, enable more 
renewable power, and enhance reliability.
    But better use of the existing grid alone won't do the job alone.
    We have largely solved the problem of producing wind and solar 
electricity in a cost effective fashion. Now we need a better grid to 
pull it all together.
    The Investment Tax Credit for Regionally Significant Electricity 
Transmission Lines, would be an essential tool in developing American 
grid infrastructure. The proposed 30% tax credit would unlock new 
merchant transmission lines as well as rate regulated ones, ultimately 
unlocking investment and reducing costs to consumers.
    As Congress considers an investment tax credit for transmission 
lines, it's perhaps helpful to dive into the mechanics of how 
transmission lines get paid for today and why we aren't getting all the 
grid we need to combat climate change. In this context, one must look 
at the two business models that support the financing and construction 
of new transmission lines.
    The great majority of transmission projects built in the US come 
about as a result of regional grid planning exercises. System operators 
project growth in demand, make assumptions about plant retirements, and 
project what new projects might get built. Individual transmission 
lines or groups of lines are looked at on a ``benefit to cost'' ratio. 
If new lines will benefit the system, say on a 1.5 to 1.0 benefit to 
cost test, the system operators, working with state regulators, see to 
it that the lines get built. If the projects don't pass that test, they 
don't get built. The rub lies in the fact that in almost all cases in 
the US, carbon externalities are not factored into the grid planning 
process. Sometimes carbon is included in scenario planning, but rarely 
is carbon used in the benefit to cost tests. Not surprisingly, this 
means that we are not planning the grid around a carbon constrained 
world. While not a perfect policy tool, an Investment Tax Credit can 
make up for this deficiency in the planning process. The ITC would have 
the effect of lowering the denominator in the benefit to cost test. 
More lines would make it through the planning process, and we will end 
up with a lower carbon grid.
    The other type of transmission lines that get built are called 
``merchant'' lines. These are typically built outside the conventional 
planning process, and their economics rely on generators paying the 
developers of merchant lines to deliver their power across long 
distances to get to market. An ITC will help reduce the cost of the 
transmission service, and therefore more lines would get built, and 
more renewable energy projects will follow. Importantly, merchant lines 
often provide reliability and other services to the grid for which they 
do not get paid--despite the fact that such services can be extremely 
valuable. An ITC will help make up for this market failure.
    In both the merchant and regionally planned approach, the ITC is 
passed through to consumers.
    While the tax credit is beneficial to unlocking these shovel-ready 
projects, the timeline for new interregional transmission can take a 
decade to complete. The Federal Energy Regulatory Commission has the 
authority to break the planning and cost allocation logjams that are 
preventing high voltage interregional projects from being built. Among 
other reforms, the Commission should consider directing regional 
planning authorities to evaluate future system needs based on a range 
of plausible scenarios, including high renewable penetration; link the 
interconnection and transmission planning processes; and consider non-
transmission alternatives to costly local replacement projects that 
don't move the needle on bulk power flows. Research has shown 
incorporating non-transmission such as Grid Enhancing Technologies can 
yield significant returns and unlock previously untapped capacity, 
efficiency, and resilience.
    High voltage transmission lines are the ties that bind regional 
grids and build resiliency. With renewed effort, we can enhance and 
modernize grid infrastructure, create the jobs of tomorrow, improve 
health outcomes for the most vulnerable, and reduce the costs of 
running one of the world's most complicated technological wonders. We 
should take the forewarnings of recent regional grid failures as a 
national call to action to rebuild our infrastructure along an 
interregional framework with the tools, technology, and policy delivery 
mechanisms we have at our disposal today.
    Thank you for the opportunity to testify, and am happy to answer 
any questions you may have.

    Ms. Castor. Well, thank you very much.
    I want to thank all of our witnesses for their very 
insightful testimony. And I will recognize myself for 5 minutes 
for questions.
    You know, a reliable electric grid powers everything we do. 
And I think it is clear that we have a consensus here that 
investments in transmission would benefit consumers across the 
country. We have to fix some of the flaws too that were 
highlighted by the catastrophe, fatal catastrophe, in Texas and 
others. So this piece of an infrastructure plan focused on 
electric transmission is just going to be critical, and I think 
there is common ground here.
    So, Ms. Apsey, you have now watched a growing consensus 
here in Congress. President Biden has put forth his American 
Jobs Plan. Here in the House, we are probably ahead of the 
Senate with LIFT America and CLEAN Future. When you look at the 
pieces of legislation that are on the table right now to be 
considered as we hammer out an infrastructure plan, what is 
most important, and do you see anything--any pieces that are 
missing?
    Ms. Apsey. Great. Thank you, Chair Castor, for that 
question.
    Yeah, absolutely there are, you know, I would say, 
multiple, you know, I think indications both from the 
administration, in different bills, the investment tax credits. 
You know, I think for us, and given our business and our 
experience, you know, anything that I think can help drive and 
facilitate the regional planning process--because really what 
we need is, you know, utilities make significant investments 
every day to maintain the reliability of their grid. But when 
it comes to planning, you know, across multiple transmission 
owners, across multiple states, across multiple regions, we 
don't necessarily have the processes that facilitate that. We 
have had some positive momentum about a year--about 10 years 
ago, with the Midwest Regional Transmission Organization, with 
their MVP portfolio of projects, but since that time, we really 
have not seen any other meaningful regional transmission.
    So legislation or efforts that can advance--and I think 
both Emily and Mr. Skelly spoke to this--where we can include, 
you know, the multiple benefits that transmission provides, 
transmission integrates and provides access to renewable 
energy. It also continues to provide access to existing 
generation assets. It provides resiliency. It provides 
reliability. It provides economic benefits. And all of these 
benefits have to be included as we do our studies.
    And if we can do that, what will occur is that the benefits 
will speak for themselves and that then we can move forward to 
actually realize these transmission projects, rather than them 
being stuck in sort of what we call the planning do-loop of the 
scenarios and the assumptions.
    And so there are--there are specific provisions that do 
advance regional planning, and we would strongly suggest that 
we continue to put our shoulder behind those. I think the 
investment tax credit is an important tool in our toolbox to 
continue to realize meaningful investment in regional and 
interregional transmission infrastructure.
    Ms. Castor. Thank you.
    Yeah, and I am glad you mentioned that, because I am 
working on legislation in the Energy and Commerce Committee to 
address the expansion of the transmission system, the 
preplanning, the incentives for states to do that planning. 
Secretary Granholm yesterday in a hearing highlighted existing 
rights-of-way. So we have got to get down to brass tacks now in 
those details.
    So, Ms. Fisher, I know you care about this and you are--all 
the utilities do as well. One of the key pieces to moving to 
clean energy and expanded grid is going to be a clean energy 
standard and an energy efficiency standard. States are 
different, though, across the country, and we want to make sure 
at the Federal level we have the incentives working correctly. 
I mean, many utilities have been focused for decades on selling 
as much power as possible, but we have to have the incentives 
for energy efficiency and conservation.
    So what is the--what do we need to be doing, from your 
point of view, on a clean energy standard and an energy 
efficiency standard?
    Ms. Fisher. Thank you so much for the question, Chair. As a 
sort of preliminary matter, actually our members have been 
delivering energy efficiency solutions to our customers for a 
really long time and have been partners with our state 
regulators to find ways to help our customers use less energy 
and control their energy costs. I think we are kind of unique 
in that we are the only people that actively help people use 
less of our product. And we have saved, you know, terabytes, 
trillions and trillions of megawatt hours of electricity over 
the last decades on energy efficiency.
    So we definitely agree that one of the first tools for 
managing emissions is efficiency, and we look forward to 
continuing to partner with our customers and our state 
regulators on those processes.
    Ms. Castor. Well, I have run out of time. So hopefully you 
can address the clean energy standard down the road. Thank you.
    Next, I will recognize Ranking Member Graves for 5 minutes.
    Mr. Graves. Thank you, Madam Chair. I appreciate all the 
witnesses' testimony.
    Ms. Apsey, I want to ask a question. We have talked about 
some pretty substantial investments required to kind of 
modernize the grid. Do you see sufficient capital just in your 
work in the states--I believe in the Midwest--where you have 
been operating? Do you see sufficient capital that is available 
and being invested in transmission?
    Ms. Apsey. Absolutely. Thank you for that question. Yeah, 
absolutely. I would not say that the issue or concern with 
investment in transmission is access to capital. I think what 
the issue and concern is more in terms of, obviously, the 
amount of time it takes to plan, to receive the necessary 
approvals. And, obviously, you know, these are major, major 
large transmission projects that take time in and of themselves 
to construct.
    And so from an investor perspective, you know, investors 
want clarity. They want stability and policies, right, as they 
consider making those investments into businesses like ours or 
any other utility. Investors need stability.
    Certainly, you know, we--you know, we--you know, for us, 
access to capital is not the concern. It is more the inherent 
processes and the amount of time it takes to realize that 
investment in transmissions.
    Mr. Graves. Thank you.
    Could you talk about perhaps--and I know you have had all 
sorts of experiences, but maybe talk about an experience where 
you had especially bad memories in terms of trying to move 
forward on a transmission project, perhaps, where you ran into 
regulatory obstacles or got stuck in the do-loop?
    Ms. Apsey. Sure. Well, thankfully, I would say the good 
news is, you know, because to date most of our investments in 
transmission have been sort of, I would say, within our own 
footprints, our own geography, our own control, and we worked 
very well through our RTOs, our stakeholder processes, our 
communities, in order to, you know, site and permit those 
facilities.
    You know, one project I would identify, it was first 
identified through this MISO RTO, you know, portfolio of 
projects, and that is our Cardinal-Hickory Creek Project. So it 
has been in the planning process and the execution phase for 
over 10 years now and, you know, we have spent considerable 
time, considerable years, going through the necessary, you 
know, environmental reviews, environmental processes, working 
with all the various stakeholders. And, you know, while we 
continue to move forward with that project, there is pending 
litigation.
    And so, obviously, from a risk perspective, a certainty 
perspective, obviously, those types of things just can serve to 
delay the ultimate realization of the benefits that that type 
of project would bring.
    Mr. Graves. Ms. Apsey, is it fair to say that in many cases 
that some of these process obstacles are preventing the 
deployment or transmission of clean energy in some cases?
    Ms. Apsey. Yeah. Well, certainly, that is one hurdle, one 
obstacle, as I mentioned. You know, there is multiple hurdles 
in realizing transmission investment, you know, planning----
    Mr. Graves. OK. Let me--thank you very much.
    And I just I want to make reference. We have introduced 
legislation called the BUILDER Act that tries to reform at 
least part of this process, and certainly would appreciate any 
feedback that you or your folks would have based on some of the 
experiences that you had in trying to build transmission.
    I want to say this again. I said it in the opening. I do 
think that the Chair and I, and I think everybody on the 
committee, shares concerns about the--this regulatory process 
and how we ensure that it is scaled or tailored in a way that 
allows us to actually realize the benefits of a modernized grid 
and some of the new energy sources that will be transmitted.
    Ms. Fisher--and I apologize. I think I made reference to 
your either middle or maiden name--sorry about that--when I 
referenced your testimony earlier. But just want to ask you if 
you have any thoughts or feedback on some of the regulatory 
reforms that perhaps would be needed, keeping in mind the 
tripling, perhaps, of the capacity that you have noted in your 
testimony?
    Ms. Fisher. Thank you for the question, Ranking Member 
Graves. And you made my dad really happy by mentioning my 
maiden name, so thank you.
    You know, we have engaged with both this administration and 
the prior administration on efficient NEPA reviews in 
particular, and there are ways to make those processes be a 
little bit more efficient, take less time, but still be totally 
faithful to the environmental goals and purposes of that 
statute. You know, it is an information-gathering statute, not 
an outcome-determinative statute, and there are some basic 
process improvements that I included in my testimony, my 
written testimony.
    But, for example, one of the things that we think would be 
truly important is being able to use the same Record of 
Decision that one agency developed if another agency also has a 
permitting authority. That seems like an important way to avoid 
duplication. That--you know, we also think that the project 
proponents, like Ms. Apsey, should have a role in being able to 
provide relevant information to the agency that is conducting 
the review. They are closest to the projects and they have the 
most information.
    One really important change for us actually would be a more 
holistic approach to greenhouse gas emissions so we could 
actually recognize the greenhouse gas benefits that these 
projects provide. We are often not allowed to do that and not 
to contextualize these projects appropriately.
    Ms. Castor. Thank you very much.
    Mr. Graves. Thank you. Appreciate it.
    Ms. Castor. Next, we will go to Rep. Brownley.
    Ms. Brownley. Thank you, Madam Chair. And thank you all for 
being here this morning.
    Ms. Apsey, my first question is, it is my understanding 
that the House E&C Committee has proposed a new program for the 
Department of Energy that would provide Federal assistance and 
technical assistance to state, local, and Tribal authorities to 
help them better participate in this process. Do you think such 
a program would help in terms of, you know, the overall 
acceleration of the, you know, 10-plus-year timeline it takes 
to--that we often see with transmission development?
    Ms. Apsey. While I don't have any specific knowledge or 
information on what you are specifically referring to, you 
know, stakeholder processes are important. All of our business 
operations we participate through regional transmission 
organizations which have stakeholder processes. We then are 
further involved in stakeholder processes through any of the 
siting--state siting processes or Federal siting processes.
    So my recommendation would certainly be that--and perhaps 
to Ms. Fisher's point--I think anything that we can do to drive 
more collaboration and coordination, you know, sort of under, 
if you will, one umbrella, I think would be most important and 
most valuable so that we don't add additional time to the 
process. We already go through multiple levels of stakeholder 
interaction, stakeholder collaboration, and certainly every 
voice is important in that process.
    Ms. Brownley. Thanks. And you also mentioned, you know, the 
investment tax credit being an important tool in the toolbox. 
And, you know, there have been many who have estimated that if 
we did the investment tax credit correctly, that could yield 20 
to 30 gigawatts of additional capacity to the grid. Do you 
think that is the proper yield strictly through an ITC or does 
that mean--do we have to do the ITC with modifications to 
regulations wrapped around it?
    Ms. Apsey. I would strongly suggest that we need both. I 
think we need an all-in approach. I don't think there is a 
silver bullet. Transmission is incredibly complex. It takes a 
very long time to plan and to receive the necessary approvals 
and then ultimately construction.
    We have processes in place today that have worked and that 
have yielded significant benefits for consumers. So I don't 
think--I don't think we are looking to make a wholesale shift 
in how we pay or incentivize transmission. I think we have got 
a lot of existing processes that do work, but I certainly think 
we do need additional tools in the toolbox, as well as some 
regulatory reforms.
    Ms. Brownley. Thank you.
    And I have got a little bit more time.
    Mr. Skelly, you have mentioned your, you know, siting of 
many shovel-ready projects. And would an ITC, you know, get 
those moving quickly? And what kind of yield would that bring 
in terms of expansion to the grid?
    Mr. Skelly. Yeah, I do think it would be very helpful for 
two reasons. There is two types of transmission lines. One that 
are cost allocated that come out of the planning process. And 
because our current processes don't take into account growth 
and things like electrification and don't take into account 
carbon emissions, that failure to account for them means that 
they don't make it through the planning hurdles. Okay? And ITC, 
by bringing down the cost, would get more projects through the 
planning process and we get more built.
    On merchant lines, i.e., developed by independent 
developers, you basically get paid to move power and--but you 
also provide reliability and ancillary services benefits to the 
grid, which you often don't get paid for as an independent. And 
an ITC, while an imperfect mechanism, okay, provides some sort 
of rough justice and helps get these merchant projects done, 
and in a sort of roundabout way compensates them for the 
benefits that they provide to the grid.
    Ms. Brownley. And, you know, I don't have much time. So I 
will yield back, Madam Chair.
    Ms. Castor. Thank you, Rep. Brownley.
    Rep. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    First of all, I want to address the issue of the cost of 
this and the reliability of it. There was an audit of the 
German electrical grid. You know, they have done away with coal 
and nuclear and they have tried to go to renewables, and this 
audit found that electricity prices, residential electricity 
prices in Germany are 43 percent higher than the average for 
the other EU countries, and their electricity prices were 
already high. According to the report, it caused chaos to 
producers and consumers and threatened the German economy. So I 
find it interesting that my colleagues across the aisle keep 
saying that this is going to be cheaper than the way we produce 
electricity right now.
    So, Mr. Skelly, I just, because our--I know we are talking 
about a complete replacement of the grid, but even that will 
still require a consistent baseload. How do you expect to 
achieve that without some backup?
    Mr. Skelly. Okay. So we have a few big advantages over the 
Germans. We have much better wind and much better solar 
resources, and because of that, that makes our costs 
dramatically lower.
    In terms of reliability, one thing that we know about 
network systems is network systems--and we saw this with 
Colonial Pipeline last week--if we had had a whole network of 
pipes, okay, we wouldn't have relied on just one pipe. So when 
you build a network system, you always get better reliability. 
And what we are talking about here----
    Mr. Palmer. Mr. Skelly, from an engineering perspective, 
unlike natural gas, which you can increase the output almost 
immediately, you can't do that with wind and solar. It requires 
substantial battery storage. And just--MIT reports that just 
getting to 12 hours, storage will cost $2.5 trillion. And I 
assume that you are counting on the taxpayers to pay for that.
    The fact that Germany is in the position it is in with its 
electric grid may be explaining--may help explain why they are 
so desperate to cut this deal with Germany.
    In regard to permitting, I think that is a huge issue for 
us. I mean, under the current permitting regime right now, you 
can't even get the paperwork done in the timeframe that my 
Democrat colleagues think that the planet has left.
    But if we expedite the permitting, would each of you be 
okay with building transmission lines across wetlands and 
rivers and sensitive habitat which holds up so much of our 
infrastructure construction right now?
    Would you be fine with that, Ms. Apsey? It is a yes or no. 
It is a yes or no.
    Ms. Apsey. Well, certainly, yes, anything to expedite. But 
certainly there are considerations that obviously we want to be 
sure that we don't find ourselves in litigation that would 
further extend the timeline.
    Mr. Palmer. That leads me to--the next question is for Ms. 
Fisher. You in your testimony talked about litigation being a 
significant factor in infrastructure projects. Do you see how 
these issues that we have been dealing with for years will 
continue to persist in the permitting process? And if you can 
be very brief, I would appreciate it.
    Ms. Fisher. I think some clear direction on permitting 
might help resolve some ongoing litigation challenges.
    Mr. Palmer. Okay. There is a couple of other things I want 
to point out about this having a consistent network. One is 
that it will require inverters, going back to what I was trying 
to explain about the fact that you can't just ramp up your 
power load with renewables immediately. And China is really 
inserting themselves into that. That, I think, creates some 
national security concerns for us and particularly when we are 
so reliant on China already for rare earth minerals and other 
minerals that we are not mining nor refining nor manufacturing 
ourselves.
    Wouldn't that create a major problem down the road, 
increasing our reliance on China, Ms. Fisher?
    Ms. Fisher. We are very committed to the cybersecurity of 
our supply chain. And we have been talking with all of the 
parts of that supply chain, particularly with respect to 
inverters, to ensure that they are cyber-safe. It is a priority 
for all of our companies.
    Mr. Palmer. Madam Chairman, just a point of personal 
privilege here. I do think there is another issue that we need 
to take into account, and that is the potential for major solar 
flares, known as a coronal mass ejection. Lloyd's of London has 
major concerns about it. And what we once considered a once-in-
100-years episode, we are now saying has a 4 to 13 percent or 
12 percent chance of happening in a decade. And I think the 
committee should at some point take that under consideration.
    I was shocked yesterday to find out that Energy Secretary 
Granholm knew nothing about that, even though it has been 
something that has been worked on the last three 
administrations.
    So if----
    Ms. Castor. Thank you, Rep. Palmer. Let's work on that.
    Mr. Palmer. I appreciate that. And I yield back.
    Ms. Castor. Next, we will go to Representative Huffman for 
5 minutes.
    Mr. Huffman. Well, thank you, Madam Chair, and thanks for 
this hearing. I think, once again, you have found a space in 
this climate debate where there is--there is ample room to work 
together and collaborate and do things that shouldn't be 
controversial, that seemingly are pretty obvious.
    We know expanding and modernizing our country's electrical 
grid is key to unlocking the next phase of access to clean, 
reliable, affordable, renewable energy. As we have heard here 
today, a clean energy grid is the foundation really for 
decarbonizing all sectors of the economy, from transportation 
to buildings to industry.
    But, you know, for years, we have been told, mostly by the 
fossil fuel industry but also by some grid operators and 
utilities, that this vision of a carbon-free power grid powered 
mainly by renewables is unrealistic. Even just a few years ago 
when I was a California legislator, I was told that our, at 
that time, 33 percent renewable portfolio standard was 
unattainable.
    But 3 weeks ago, Madam Chair, something really interesting 
happened. For a few minutes, California hit a remarkable 
milestone. Ninety-five percent of our electricity came from 
renewables. We have been bringing solar, wind, and storage 
online faster than anyone previously predicted.
    And suddenly, the conversation is not about if we can hit 
our 100 percent clean energy goal, but whether we can do it 
faster than 2035. And it brings to mind this principle of a 
broken window at which things that are thought to be impossible 
suddenly become inevitable. And no matter how much the 
opponents of clean energy tried to pull that over to a window 
back to the previous century's thinking, there is nothing like 
seeing the fifth largest economy in the world powered almost 
entirely by renewables or an all-electric F-150 that blows away 
the internal combustion version of that iconic truck. So it 
proves that the times are changing, and our job should be to 
make sure that change comes in time to save the planet.
    So, Mr. Skelly, would you speak to this question of what is 
possible when it comes to incorporation of renewable sources of 
energy onto the grid? How can we achieve this 100 percent clean 
energy goal? Is it doable?
    Mr. Skelly. Well, first off, I put in my deposit for a 
electric F-150 last night so I am very excited about those as 
well.
    And second, I share your fascination with the topic on, 
like, how much renewable energy can we put on the grid. And I 
have been doing this stuff for, like, 25 years. And when we 
started out, the grid operators, said, oh, wow, if we go over 5 
percent, like, we don't know how we are going to keep the 
lights on here. And this crazy, what you guys are talking 
about, even with a small project.
    And what we found is that everybody is more capable at 
figuring this out, a lot more quickly than we ever imagined. So 
the grid operators have figured it out, the meteorology has 
gotten better, the technology has gotten better. And we have 
all just sort of learned and this is how we have gotten to 98 
percent. I mean, here in Texas we regularly go over 50 percent 
renewables. If somebody had told me that that was going to 
happen 20 years ago--and I was, like, an industry advocate--I 
would say, like, no way. That is never going to happen. You are 
out of your mind.
    But to the point on transmission, one of the things--and 
NREL has done some very interesting work on this topic--one of 
the things we found is that if we want to increase a 
percentage, transmission helps us do this. And MISO, one of our 
most important grid operators, what they have discovered is 
that fronts move from the West to the East. And because we 
built out the grid in the upper Midwest, that allows us to 
distribute the wind across the Plains, because in the Western 
Plains, it is blowing hard but not yet in the Eastern Plains, 
if the front moves across, then they can move the energy back 
to the West.
    Mr. Huffman. Thank you for that.
    Mr. Skelly. So it is a really important piece to address 
some of these issues that we are going to tackle and we have 
proven we can tackle. And----
    Mr. Huffman. I appreciate that. I just have a moment left. 
In addition to more renewable energy, of course we want a grid 
that doesn't spark fires every time the wind blows.
    And so Ms. Apsey, I want to ask you, as someone who 
represents arid California, how will these grid modernization 
investments also address the fire-prone nature of our current 
grid?
    And I know I am out of time so I will yield back in 
advance, Madam Chair. But if there is time to allow a brief 
answer, I would greatly appreciate it.
    Ms. Castor. Let's take that for the record, because we have 
a vote that has been called.
    And my intention is to go for as long as possible. And we 
may have to take a quick recess at the end of the time period 
for the first vote.
    So Mrs. Miller, if you are ready I will recognize you for 5 
minutes.
    Mrs. Miller. Thank you, Chair Castor and Ranking Member 
Graves. And thanks to all of you all for being here today.
    I agree with my colleagues that modernizing our electric 
grid is paramount. A strong and reliable grid ensures that we 
can continue to keep our lights on in our homes, our schools, 
and our businesses and reduce our carbon emissions. There is 
certainly space for renewables in our grid modernization.
    However, I think we all understand that renewables are not 
currently in a place to power the entire grid. We must ensure 
that we have a key baseload energy--coal and natural gas--to 
fill in the gaps to keep the lights on when renewables cannot. 
I am sure my colleagues from down South can attest to this and 
the importance of having a resilient grid, particularly after 
the storms that were down there as well as in my state in West 
Virginia.
    In order for our grid to be reliable, we need to ensure 
energy can be transported quickly and efficiently. Pipelines 
are infrastructure. The actions this administration has taken 
on the Keystone Pipeline not only cost American jobs but will 
cost the American energy grid. Ms. Fisher, how important is 
baseload energy, such as coal and natural gas, to balancing the 
electric grid?
    Ms. Fisher. Thank you very much for the question, 
Congresswoman. We use a very diverse range of resources to 
ensure that we are able to provide reliable electricity. So 
right now we do rely on resources like nuclear, natural gas, 
and coal to provide electricity and to address variability in 
renewable resources.
    Many EEI members see a path to 80 percent emission 
reductions using current technologies including renewables and 
storage, but we are focused on developing those clean 24/7 
resources that will help us provide reliability long-term as we 
continue to decarbonize.
    So thank you for the recognition of the importance of that.
    Mrs. Miller. Well, you had mentioned in your testimony that 
natural gas is one of the factors that are helping to drive 
clean energy transformation. What else is needed to increase 
the deployment of natural gas?
    Ms. Fisher. We actually are the largest users of natural 
gas in the country right now, Representative. So we use natural 
gas right now to provide more than--I think it is close to 40 
percent of the electricity generated in the United States last 
year. So we rely on that. And we want to make sure that we have 
continued access for it as we are developing those clean 
technologies that will allow us to provide 24/7 support in a 
cleaner future.
    Mrs. Miller. Well, what positive changes could be made to 
our energy infrastructure to decrease the cost to the 
consumers?
    Ms. Fisher. We have been very fortunate, thank you for the 
question, that we have been able to reduce emissions 40 percent 
over the last about 5 to 7 years while----
    Mrs. Miller. Wow.
    Ms. Fisher [continuing]. Keeping the energy crisis flat. 
But we are constantly concerned about the impacts to customers. 
And I think there are ways to help mitigate some of the 
potential increases in costs to customers.
    There was some discussion today about the value of the ITC 
for transmission and mitigating cost. We also see some value in 
mitigating costs to address the wildfire issue, to help us 
offset the cost of some of the hardening that we will need to 
take to make sure that the grid is resilient to different 
hazards across the country.
    Mrs. Miller. Thank you so much.
    Chairman, I yield back whatever time I have left.
    Ms. Castor. Thank you, Representative Miller.
    Next we go to Representative Levin.
    You are recognized for 5 minutes.
    Mr. Levin. Thank you, Chair Castor. Thank you for holding 
his hearing. And I do appreciate the bipartisan nature of the 
topic today.
    Mr. Colston, I wanted to first give a shout to the IBEW in 
my area, San Diego in Orange County. I have great relationships 
with them. And I know they are excited about the future of the 
electric grid and the role that IBEW will play. We know when 
President Biden talks about climate, it is always jobs, jobs, 
jobs. The American Jobs Plan, of course, focusing on a lot of 
this. And I wanted to ask you what jobs impact do you expect 
the highlighted aspects of President Biden's proposal to have? 
And bottom line, what will this mean for your membership?
    Mr. Colston. Clearly the IBEW is fully supportive in all of 
the evolved fuel sources. When we talk about that it is 
infrastructure. Infrastructure creates jobs. Technology creates 
jobs for the IBEW. As we build out the grid itself, that allows 
the IBEW to bring in more members to build out the grid itself.
    As we electrify IBEW's fully supportive of electrifying the 
grid as it is. Electric charging station in as many places that 
we can. That produces jobs as well. And when we talk about 
technology, technology made in the United States, that produces 
good manufacturing jobs. So the whole transition as it takes 
place, working with our utility partners and also our 
construction partners as we transition that creates good 
valuable union jobs, blue collar jobs.
    Mr. Levin. Terrific. Well, I was excited about that Ford F-
150 Lightning announcement last night. Also, though, I don't 
think my wife's going to let me buy a new car any time soon. 
But when I do, it is going to be another union made electric 
car. So that was great.
    I wanted to turn to planning for the siting of renewable 
energy projects, I heard some about this. And particularly on 
our public lands, I have been supportive of what they call 
Smart from the Start where we designate development zones that 
are best for certain renewables so that they don't conflict 
with other land uses. And I know that the Interior Department 
has engaged in this type of planning for transmission as well.
    Ms. Apsey and Mr. Skelly, do you see value in this type of 
Smart from the Start planning for transmission? And if so, what 
are the best strategies to minimize impacts and conflicts 
caused by new transmission lines? And are they applicable to 
both public and private lands?
    Whoever wants to go first.
    Ms. Apsey. I am happy to jump in. Thank you for that 
question.
    Yeah, absolutely. Look, I mean I think if we look at 
Michigan established about approximately 10 years ago, they 
took an approach through legislation that established 
identifying the areas in the state that had the highest wind 
potential. And then through legislation it essentially 
instructed the transmission providers to build the necessary 
transmission to harvest as much wind. This was sort of a 
renewable energy zone. Texas went through a similar process. It 
is a very successful effort, a very successful process.
    You know, look, we know in this country, we know where the 
wind blows. We know where the sun shines. And so, as we talk 
about planning a transmission planning process first, this 
would be consistent I think with what you are suggesting. And 
that is, right now what we do is we build transmission to 
interconnect everywhere a generator may site, whether it is 
optimal or suboptimal.
    It is sort of like the movie the Field of Dreams, sort of 
build it and they will come. If we build the transmission where 
we know the renewable potential is, those renewable developers 
will locate around the transmission line because the cost of 
the transmission for the way we ask generators to pay for it is 
prohibitive because the person who gets assigned the cost 
responsibility it just makes the project null and void.
    So we would be big supporters, big proponents of sort of a 
transmission first approach based on where we know the 
resources in the country are located.
    Mr. Levin. Mr. Skelly, with the time I have left, I along 
with many of my colleagues think that modernizing, expanding 
electric grid ought to be a bipartisan subject where we find 
common ground. And I was just curious what your view is as an 
entrepreneur, who lives in Houston, Texas, on that?
    Mr. Skelly. Yeah. Well, I think at the state-level we have 
seen that it is a bipartisan issue. And you know, in Texas, we 
did the biggest expansion of the grid, originally initiated by 
Governor Perry and then followed through on Governor Abbott.
    So it can be a bipartisan--or one party or the other does 
it. It doesn't even have to be bipartisan, both parties seem to 
do this. So I am confident we can get something done.
    Mr. Levin. I am too, Mr. Skelly. Let's work together. Let's 
find common ground. Let's get it done.
    Chair Castor, I yield back. Thank you.
    Ms. Castor. Thank, Representative Levin.
    Next we will go to Representative Armstrong.
    You are recognized for 5 minutes.
    Mr. Armstrong. Thank you. I am just reading the LA Times 
and I think it is great that we get somewhere to this point, 
but the LA Times, a 94.5 percent figure was fleeting, lasting 
just 4 seconds and was specific to the state's main power grid 
which covered four-fifths of California, but doesn't include 
Los Angeles, Sacramento, and several other regions. So I think 
it is great, I think it is partial.
    But I just, you know, we are talking about these Federal 
right-of-ways and I think that is a great idea. And as we are 
having an honest conversation about building out this 
infrastructure, it is essential to expanding and, modernizing 
the grid, we have to continue to talk about permitting. And I 
have brought this up in multiple hearings because it is at the 
core of many of the policy changes being talked about by both 
Democrats and Republicans.
    And at the Federal level, we already have the Federal 
Permitting Improvement Steering Council that oversees the 
Federal permitting process and resolves conflicts. 
Unfortunately, the Council's authorization sunsets in the 
coming years.
    Last Congress, I introduced a bill with Senator Portman and 
several Democratic Senators to eliminate and expand the 
process. I mean, and the reality is many of these energy 
projects--traditional energy projects or renewable projects--
will never come to fruition unless we maintain a neutral 
permitting structure that is dependable, timely, and 
reasonable.
    And we know this, as we continue to deploy this, we are 
going to have to talk about the existing rights of way, but--I 
am sorry--but we know we will need more land to distribute this 
generation.
    So Ms. Fisher, how do we improve the permitting process to 
allow more rights-of-way? Because as things stand, we just 
simply don't have enough land available for distributed 
generation.
    Ms. Fisher. Well, I think that you have identified--thank 
you for the question. I think that you have identified 
coordination among differing permitting authorities is really 
important, and extending that authority so that Council can 
continue to operate would be useful.
    You know, Federal and state permitting processes need to 
work together well. States do have a lot of control over what 
is cited in them. And we believe bringing in state partners 
early into the discussion is really important. But, you know, 
it is looking at efficient ways to get multiuse out of pieces 
of land.
    I will note that it is not incompatible with public lands 
to run transmission through it. And that transmission often 
comes with really large conservation easements that preserve 
and protect land. So I think there are lots of ways to look at 
multiuse.
    Mr. Armstrong. Well, I just want to piggyback off of that a 
little bit. One, I mean, when you are doing the state 
permitting, if it is not common carrier, right--like North 
Dakota is a state that does not allow eminent domain. Right? 
And so you are having those different transitions. But you talk 
about those--actually, we did obviously during the oil boom, we 
tried to get a lot of pipe and transmission in the ground in 
Western North Dakota. And my friends and colleagues in the 
industry asked us how we can do that? I say, go back in time 
and give the county easements, because on county roads in North 
Dakota private landowners own to the middle of the road.
    But when you are talking about these conservation easements 
as we talk into the litigation as an ongoing issue that delays 
the deployment of transportation--I mean, this isn't unique to 
electrical transmission. This exists whether it is a highway, a 
pipeline, a high voltage line. How do we address--do you have 
some ideas of how we address that?
    Ms. Fisher. People don't necessarily love living near 
infrastructure even when they benefit from it. That is a 
pervasive problem. I do think that you have identified some 
appropriate ways of looking at how we site a lot of 
infrastructure and run right-of-way to sort of minimize 
impacts. I think that could be really helpful.
    And we have seen some of our members do that, for example, 
while they are deploying fiberoptic cable for their own uses, 
they are also using that to bring middle mile broadband to 
other customers who might not have access to that. So there are 
ways to piggyback. Our infrastructure can be used for a lot of 
other purposes. We do share a lot with the telecommunications 
industry for example.
    Mr. Armstrong. Well, I think one of the things we don't 
recognize enough is with multiple agencies often completing 
duplicative reviews, not only does take much more time, but it 
creates several different areas in which--as is often the case 
in a lot of these litigated cases, they don't care necessarily 
which permit you violate. They just care that you violated one 
of them or they have a case. So if we could get some of that 
streamlined to get rid of the duplicative processing, do you 
think we would also reduce some of the litigation?
    Ms. Fisher. That would probably reduce some litigation. 
Thank you.
    Mr. Armstrong. And with that, I guess, Garret, I have 14 
seconds if you want it or I will just yield back.
    Ms. Castor. Thank you very much, Representative Armstrong. 
I think the other Democrats are hustling back from the votes. 
So we will go to Representative Crenshaw.
    Welcome, you are recognized for 5 minutes.
    Mr. Crenshaw. Thank you. Thank you, Madam Chairwoman, for 
holding this important hearing.
    I always want to preface everything we say we want to get 
to the same goal, a reduction in global carbon emissions. I 
want to get there in a smart way without destroying our 
economy. And I think the solutions we offer generally are a 
faster way to get there, to be perfectly honest. I want to 
actually follow up on what Mr. Armstrong was talking about.
    Mr. Skelly, you authored a report on 22 transmission 
projects that are ready to go and even met with senior members 
of the administration to discuss building them. However, 
projects are on the shovel ready list have been on the list for 
a decade plus. How many of the 22 projects are active and have 
experienced more than 5 years of delay?
    Mr. Skelly. I would say yeah, they have been--well, the 
list is a new list so they haven't been on the same list, but 
they have been underway for at least a decade on average. Okay?
    Mr. Crenshaw. Yeah.
    Mr. Skelly. And there is a few reasons why they haven't 
moved forward. One is permitting delays. The other is failures 
in the cost allocation process that we talked about a little 
while ago. And that is, in other words, a failure to consider 
all the benefits of the transmission. And the other is a 
failure of the system to basically reward some of the merchant 
developers for the additional services that they provide so.
    Mr. Crenshaw. And one of the things we see of course is 
weaponization of the court system. I mean, talking about 
Cardinal-Hickory Creek, maybe I will move to Ms. Apsey for this 
since you all are in charge of this one. Why is that facing 
delays? Is it eminent domain, permitting, financing, political 
will, or is it mired in lawsuits?
    Ms. Apsey. Yeah. It is facing delay based on pending 
litigation, which is essentially an appeal, parties who are 
opposed to the project are appealing the process by which it 
went through for several years.
    Mr. Crenshaw. And do you think that these transmission 
projects are going to face similar litigation, and that would 
be a barrier to rolling out new transmission, especially well 
over 120 percent additional new transmission, which is what our 
fellows at Princeton seem to believe would be necessary to meet 
our goals?
    Ms. Apsey. Yeah. There certainly is a history of many major 
transmission projects being delayed through litigation, you 
know. And obviously, as we have talked about before, I mean, 
time. Time is of the essence if we want to realize the benefits 
both in terms of integrating renewables, the reliability, the 
resiliency benefits. And so time is of the essence. And these 
projects in and of themselves, even when everything goes as 
planned and well, can take anywhere from 7 to 10 years to 
realize.
    Mr. Crenshaw. Which is far too long. And look, this is the 
broader point I am trying to make here, step two is paying for 
this stuff and building it. Step one is actually allowing 
ourselves to build it. If we don't address the permitting 
issues in this country, which are far more stringent than most 
developed nations, we are never going to get to the part where 
we build 120 percent more transmission lines in America. We are 
never going to get to that point. There is no point in 
allocating around $3 trillion to do this if it is just going to 
be weaponized by the courts and weaponized by environmental 
groups.
    So I would ask my colleagues on the other side of the aisle 
to consider this, the clean energy goals are directly in 
conflict with the environmental groups as well because they are 
the ones who sue and settle. The law has to be changed. There 
is a lot of examples of this.
    In 2011, President Obama created the Rapid Response Team 
for Transmission to speed the permitting of five Western 
transmission line projects. Only one is under construction so 
far. Only one. The law needs to be changed. The proposed 300 
mile electricity line to deliver renewable electricity from 
Idaho to Oregon commenced permitting in 2010. Federal agencies 
can't find a way forward on more than 30 Federal and 50 state 
and local permitting actions, and another 100 water crossing 
approvals.
    Then I want to get to another broader point which is, is 
this even the right approach to try and build--build massive 
amounts and take up massive amounts of land for wind and solar 
in places where the sun shines, and in places where the wind 
blows, build out massive amounts of infrastructure and 
transmission lines, to get that to where we need it? Is that 
really even the right approach? Maybe we should rethink this.
    We could build, for that amount of money, countless nuclear 
plants. A nuclear plant, by the way, operates on a 1,000 acres 
versus the same power of a solar farm that operates on a 
100,000 acres. And the nuclear plant doesn't rely on weather. 
Guys, you know, I want us to rethink how we approach the 
problem that we all want to solve.
    Thank you I yield back.
    Ms. Castor. Thank you, Representative Crenshaw.
    Next we will go to Representative Casten and then we will 
go into a recess for 15 minutes.
    Representative Casten, you are recognized.
    Mr. Casten. Thank you, Madam Chair. Thank you to all our 
members.
    Mr. Skelly, it is a pleasure to see you, one former energy 
developer to a current one. As I have long maintained, no one 
really understands the financial, the regulatory, all of the 
barriers to building projects like someone who has been in the 
trenches as long as you have.
    Americans for a Clean Energy Grid reported that as of 2019, 
there was 734 gigawatts, basically 73 percent of our entire 
grid, stuck in interconnection queues, mostly waiting for 
debates over who is going to be responsible for paying for the 
transmission upgrades. In the meantime, in Illinois where I 
live, the SOO Green Project, that is a HVDC, no generation 
associated with it, would bring cheap, renewable energy from 
Ohio into Chicago markets to ease congestion, is hung up in 
generator interconnection queues.
    Last month, I introduced a bill with Senator Heinrich that 
would require FERC to issue a rulemaking on interregional 
transmission that would explicitly recognize the benefit of low 
CO<INF>2</INF> sources and bring them online quicker.
    But what I wonder, Mr. Skelly, is if that is enough. We 
have got this problem, that I don't think any of you have 
addressed, but I want to give you a chance to talk about it, 
given some of your history.
    We have a real problem in ISO/RTO governance. The 
governance structures of those organizations is often dictated 
by members who have--and they have the best of intentions, but 
as you know well, they have got a vested economic interest, 
sometimes, in maintaining congested and high prices in their 
region, which is precisely the problem that these projects we 
are talking about would alleviate.
    Can you just speak a little bit from your experience about 
some of the issues with ISO/RTO governance. And if you were 
king tomorrow, do you have any easy fixes that would still 
recognize their critical need and recognize the expertise of 
their members but get rid of some of the conflicts of interest?
    Mr. Skelly. Yeah. I mean, having suffered personally at the 
hands of a generator who didn't want us to interconnect on a 
number of occasions, it really is an issue. And this does feel 
like an area of ripe for FERC action and restructuring the 
governance of the RTOs to accommodate more entrants, okay, 
which is really what we are talking about. We are talking about 
enhancing competition by permitting more folks to enter the 
process.
    I think it would be very helpful. And Texas has I think has 
a great example of that. The interconnection process is very 
straightforward. It is fast. You get quick results. You are 
then in the interview market and you are kind of on your own, 
whether or not you are going to make money. But it is a process 
that has proven gets a lot of generation online quickly.
    Mr. Casten. I would love for you to comment on this, Ms. 
Fisher. I mean, a lot of the people who are in those governance 
decisions are your members, you know. Would you agree with the 
issue as I framed it? And to the extent that you can, what do 
you think it would take to get some of your members to really 
advocate for the changes necessary to essentially do something 
that may be, you know, against their short-term economic 
interests?
    Ms. Fisher. Thank you very much for the question, 
Representative. I might not fully agree that people enjoy 
keeping congestion functioning for the purpose of increasing 
prices. But I think everyone agrees that ISO/RTO governance 
hinders progress and makes it difficult for people to make 
decisions within those structures quickly and in a timeframe 
that is consistent with the problems we are trying to solve.
    I think everyone is concerned about generator 
interconnection queues and how long they are, and how 
potentially inefficient those processes are, and to look 
forward to FERC working with the governance of those entities 
to figure out how do you move things through that queue more 
quickly, how to allocate costs for generators who are trying to 
interconnect more quickly.
    I don't think anyone thinks that those processes are 
efficient as they need to be. Despite the literally sometimes 
thousands and thousands of people who participate in them.
    Mr. Casten. Okay. Well, I am getting near the end of my 
time, but I would welcome any of your thoughts on 
legislatively--I think it's very easy for us all in this body 
to punt to FERC, but since we are waiting 20 years on some of 
these things, I take your comments, Ms. Apsey, that Order 1000 
wasn't perfect. But the core is the same issue. Right? There is 
just these conflicts of interests between groups, especially 
when we get to regional connections.
    And I guess I would just remind everybody, including my 
friend Mr. Crenshaw, that it is comparatively really easy to 
permit gas pipelines in this country. We have made it 
chronically difficult to permit transmission. And a big part of 
that is the governance structure, a big part of that is the 
failure to have a single point of control on these projects.
    And I welcome all of your thoughts on what we might do 
legislatively to move that a little bit faster than the snail's 
pace it has moved in the last 30 years.
    Thank you and I yield back.
    Ms. Castor. Thank you, Representative Casten. So we will 
reconvene the committee immediately after the second vote. So 
we stand in recess until that time.
    [Recess.]
    Ms. Castor. The committee will come to order. Thank you for 
bearing with us during votes on the floor.
    Next we will go to Representative Gonzalez. You are 
recognized for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. And thank you to our 
witnesses, our panel. The good news is I do think we have found 
one area where there is bipartisan agreement with respect to 
the need to modernize our grid. The how and why is always sort 
of the challenge, but we are certainly in agreement on that, 
and the events over the last year have played out to prove that 
case.
    I would like to associate myself with Congressman Graves's 
comments with respect to the cost. And then I always like to 
see my friend, Dan Crenshaw on, who centers us in reality. And 
I would like to start with something that I think will 
hopefully do the same.
    So the hearing opened with alluding to the terrible storms 
that are taking place in the southeast and obviously our heart 
goes out to everyone affected. So I went to NOAA's website and 
found the global warming and hurricanes overview of current 
research results here. And I want to read a statement, because 
I think it is important. We are getting to a point where any 
time a bad storm happens we blame climate change. And I will 
just read their summary.
    In summary, neither our model projections for the 21st 
century nor our analyses of trends in Atlantic hurricanes and 
tropical storm activity support the notion that greenhouse gas 
induced warming leads to large increases in either tropical 
storm or overall hurricane numbers in the Atlantic.
    While one of our modeling studies projects a large increase 
in Atlantic Cat 4 and 5 hurricanes over the 21st century, we 
estimate that such an increase would not be detectable until 
the latter half of the century. And we still have only a low 
confidence that such an increase will occur in the Atlantic 
basin.
    And of course it is also true that deaths from natural 
disasters globally over the last 100 years are down 92 percent, 
which is great. And then finally--and I think we have been 
talking about California as if it is an example of how we want 
our energy to exist broadly across the country. Again some data 
between 2011 and 2020, electricity prices in California rose 
seven times more than they did in the rest of the country. And 
at the same time, carbon emissions rose 4.1 percent in 
California, even as they declined 3.5 percent in the average 
over the remaining 49 states.
    So not something I want for Ohio. And I think we need to be 
smart about how we move forward. Focus on the things we agree 
on, but also fund the basic research that is necessary to 
invent our way out of what is certainly a challenge with 
respect to climate change and making sure that we do it in a 
smart, a smart way, that is affordable and lasting.
    So I want to start with Ms. Fisher. As I am sure you are 
well aware, Congress is currently debating and negotiating an 
infrastructure package that largely hinges on the question, how 
do you pay for it? If we are going to modernize and decarbonize 
the grid, we are going to have to attract more private capital. 
I think that is obvious.
    What sort of policies should we be pursuing to make these 
energy investments more attractive to private investors in your 
estimation?
    Ms. Fisher. Thank you very much for the question. My member 
companies are terrific at raising capital. As I mentioned, 
before we are the most capital intensive industry in the United 
States. And over the last 10 years, we have spent $1 trillion 
on grid modernization and related efforts. So what usually 
industry says remains true here. Some regulatory certainty and 
some clear direction usually helps us to attract capital and 
deploy it efficiently.
    Mr. Gonzalez. Great.
    And then Mr. Skelly, in your testimony you stated that if 
there were greater Federal investment, we would be able to 
carry out 22 high voltage transmission projects and increase 
solar and wind generation by 50 percent. Can you explain the 
impact that this would have on energy use? Because there is an 
important distinction between production and use. And obviously 
while the sun and wind are good energy sources, we still don't 
have reliable and widely useable ways to store the energy for 
days, weeks, or months.
    So how would this project solve that storage challenge, 
which I think is also a unique challenge?
    Mr. Skelly. So with electricity, because consumption and 
production are instantaneous, storage as you point out is 
important. And there are some interesting advances. I am on the 
board of a company called Form Energy and we are working hard 
at multiday storage and making good progress.
    The other way to think about it is with transmission, you 
can move energy around the country. And that actually can 
reduce some of the need for storage, because as we all know, 
the wind and sunshine are variable across the country. And 
moving energy in time as you point out is important, but also 
moving it in space can be just or even more helpful in doing 
so.
    Mr. Gonzalez. That also carries substantial cost. Right? If 
we are going to take Arizona sunshine and push it to call it 
Oklahoma, that is going to require some challenges.
    I see I am out of time. Sorry for that, but with that, I 
yield back. Thank you.
    Ms. Castor. Thank you.
    Representative Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you so much, Chair Castor and Ranking 
Member Graves. And thank you to our witnesses.
    We know addressing the climate crisis and also 
strengthening investments in our electric grid will create 
millions of good paying, high quality jobs. And that can help 
especially displaced workers recover from the economic collapse 
that has been caused by the COVID-19 pandemic.
    Last fall I had a great visit with apprentices out at the 
IBEW Local 48 in Portland. They have a partnership out there 
with NECA, the National Electrical Contractors Association. 
IBEW's electrical apprenticeship program demonstrates how our 
transition to a clean energy economy can provide this 
extraordinary opportunity to provide good paying jobs. The 
program is also an excellent example of why we need to protect 
and strengthening our registered apprenticeship system. And I 
am glad the House updated the apprenticeship bill, the first 
one since the 1930s.
    So I am one of the leaders on the Education and Labor 
Committee so I know we also have an obligation to address those 
critical failures and make sure that Federal clean energy 
investments uphold labor standards like Buy American, Davis-
Bacon prevailing wage, use of community benefit agreements, 
project labor agreements. They all make a difference.
    So Mr. Colston, in your testimony, you noted that IBEW 
anticipates the need for at least 50,000 new linemen over the 
next 10 years. So how can Congress better support IBEW's 
efforts in both training the next generation, but also making--
getting more workers, the workers that we need to help us 
[inaudible] in our clean energy transition?
    Mr. Colston. We at IBEW itself we have more than 300 
training centers throughout the United States; in almost all 
communities, we have a training center there. We partner with 
our partner utilities on training those linemen. We also 
partner with our contractors on training those linemen. And 
when the work is there, that allows us to take in additional 
IBEW apprentices.
    The apprenticeship program at the IBEW is unique as in the 
other skilled trades, as not only do we give you an education, 
but we are going to give you a job to put those practical 
skills to work at the exact same time, so they will go hand in 
hand.
    The way that Congress can help us is as more transmission 
lines are approved and actually get up and running and 
building, that puts more of our members to work. As we 
modernize the grid on the distribution system or even the 
downtown network system, as we modernize that, that technology 
allows our utility partners to add additional workforce to 
theirs too. So as a permitting and citing permits come into 
play as we determine where they are going and we can actually 
build for the future and not just building a transmission line 
that is just going to meet today's needs. We have the ability 
to bring on the workforce to do that as they are coming on.
    Ms. Bonamici. Mr. Colston, I don't want to cut you off, but 
you mentioned citing and I want to get in another question.
    So Mr. Skelly, when the Select Committee developed our 
climate action plan, we heard about the challenges of citing 
interstate transmission lines and overcoming those challenges 
was going to be key to improving resilience on the grid.
    So how will the Department of Transportation's recent 
guidance on using existing rights of way for transmission lines 
help address some of those challenges?
    And also, if Ms. Apsey can weight in, as Congress considers 
the American Jobs Plan, a once-in-a-generation comprehensive 
infrastructure package, what further Federal investments can 
help?
    So Mr. Skelly and then maybe we can get a little bit from 
Ms. Apsey.
    Mr. Skelly. Yeah. So I would say that on using existing 
rights of way, this is a fairly common practice. One when you 
are developing transmission lines, you try to use existing 
corridors or you follow pipelines, or railroads, or other 
existing infrastructure in order to minimize disturbance.
    What I think the guidance that was recently issued speaks 
to and it is incredibly important is that initiatives like this 
sort of raise the level of leadership around transmission. And 
those of us who have been doing this work for a long time are 
really heartened by the emphasis across the government, you 
all, the administration and so on, on what do we need to do to 
facilitate this infrastructure expansion.
    So that is maybe the most important element of the guidance 
that is coming out of DOT.
    Ms. Bonamici. That is really helpful.
    Ms. Apsey. Oh, gosh. Sorry. The clock ticked down, but do 
you have, like, one or two words on what further Federal 
investments can help the policies?
    Ms. Apsey. Yes, certainly. And again, just going back to 
accelerating timelines and bringing stakeholders together so 
that we can get the certainty that we need to move forward with 
this investment. Time is of the essence.
    Ms. Bonamici. Great. Thank you so much.
    I yield back. Thank you, Madam Chair.
    Ms. Castor. Thank you, Representative Bonamici.
    Well, I want to thank our witnesses for being with us 
today, for staying with us through votes on the floor of the 
House. You certainly have given us as an impetus to work in a 
bipartisan way to modernize America's electrical grid and 
expand clean energy. So thank you all.
    Without objection, I have a few things to enter into the 
record. First, the introduction from the April 2021 report by 
Americans for a Clean Energy Grid, titled Transmission Projects 
Ready to Go: Plugging Into America's Untapped Renewable 
Resources.
    The introduction from the May 2021 report by the American 
Council on Renewable Energy, titled Investment Tax Credit for 
Regionally Significant Electricity Transmission Lines.
    A May 20 letter from the American Council on Renewable 
Energy supporting investments in policies to upgrade and expand 
the electric grid.
    And a May 20, letter from the Solar Energy Industries 
Association supporting transmission investments to help achieve 
100 percent clean electricity.
    [The information follows:]

                       Submissions for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                              May 20, 2021

ATTACHMENT: Goggin, M., Gramlich, R., & Skelly, M. (2021 April). 
Transmission Projects Ready to Go: Plugging into America's Untapped 
Renewable Resources. Americans for a Clean Energy Grid.

The report is retained in the committee files and available at:
        https://cleanenergygrid.org/wp-content/uploads/2019/04/
        Transmission-Projects-Ready-to-Go-Final.pdf

ATTACHMENT: Goggin, M. and Gramlich, R. (2021 May). Investment Tax 
Credit for Regionally Significant Electricity Transmission Lines: A 
Description and Analysis. American Council on Renewable Energy.

The report is retained in the committee files and available at:
        https://acore.org/wp-content/uploads/2021/05/Investment-Tax-
        Credit-for-
        Regionally-Significant-Electricity-Transmission-Lines-ACORE.pdf

                                   ++

                                 ACORE

                  American Council on Renewable Energy

The Honorable Kathy Castor
Chair
U.S. House Select Committee on the Climate Crisis
H2-359 Ford House Office Building
Washington D.C. 20515

The Honorable Garret Graves
Ranking Member
U.S. House Select Committee on the Climate Crisis
H2-359 Ford House Office Building
Washington D.C. 20515

Dear Chair Castor, Ranking Member Graves and Members of the Committee:

    The American Council on Renewable Energy (ACORE) appreciates the 
opportunity to submit a letter for the record to the House Select 
Committee on the Climate Crisis's May 20, 2021 hearing entitled, 
``Powering Up Clean Energy: Investments to Modernize and Expand the 
Electric Grid.'' ACORE works across renewable technologies and 
represents the nation's leading renewable energy developers, 
manufacturers and investors, along with corporate electricity 
consumers, electric utilities, manufacturers of energy storage and 
smart grid technologies, and the many other diverse industries that 
comprise the country's thriving renewable energy economy. Renewable 
energy and enabling grid technologies attracted over $68 billion in 
private sector investment in 2019, and our members are proud of 
renewable energy's contribution to American economic growth, job 
creation and greenhouse gas (GHG) emissions reductions.\1\
---------------------------------------------------------------------------
    \1\ American Council on Renewable Energy, Expectations for 
Renewable Energy Finance in 2020-2023, 2020. Accessed May 13, 2021 from 
https://
---------------------------------------------------------------------------
acore.org/wp-content/uploads/2020/07/Expectations-for-Renewable-Energy-
Finance-in-2020-2023.pdf.
    Initiatives to expand transmission lines and related enabling 
infrastructure (including energy storage) play a critical role as part 
of comprehensive climate recommendations and are an indispensable 
feature of any plan to address the climate crisis by reducing GHG 
emissions. The 15 states between the Rockies and the Mississippi River 
account for 88% of the country's wind technical potential and 56% of 
the country's utility-scale solar technical potential but account for 
only 30% of projected electricity demand by 2050. These resources 
cannot be developed without a plan for building interregional 
transmission that can deliver power to high-density population centers. 
A nationwide, high-voltage direct current (HVDC) network, optimized for 
the nation's best wind and solar resources, could reduce carbon dioxide 
emissions from the U.S. electricity sector by up to 80% relative to 
1990 levels without an increase in the levelized cost of electricity. 
Such a network would enable the U.S. to generate 60% of its electricity 
using wind and solar resources alone.\2\
---------------------------------------------------------------------------
    \2\ Macro Grid Initiative, Transmission & Climate Change, 2021. 
Accessed May 13, 2021 from https://acore.org/wp-content/uploads/2020/
12/Macro-Grid-Initiative-Transmission-and-Climate-Change-Fact-
Sheet.pdf.
---------------------------------------------------------------------------
    Grid expansion will also drive economic recovery and job creation. 
A recent report from Americans for a Clean Energy Grid identified 22 
shovel-ready, high-voltage transmission projects across the country 
that would create approximately 1,240,000 family-sustaining jobs and 
enable 60,000 megawatts (MW) of new renewable energy capacity, 
increasing America's wind and solar generation by nearly 50 percent.\3\
---------------------------------------------------------------------------
    \3\ Americans for a Clean Energy Grid, Transmission Projects Ready 
to Go: Plugging Into America's Untapped Renewable Resources, 2021. 
Accessed May 17, 2021 from https://cleanenergygrid.org/wp-content/
uploads/2019/04/Transmission-Projects-Ready-to-Go-Final.pdf.
---------------------------------------------------------------------------
    A recent ACORE report detailed the growing consensus that 
transmission provides large net benefits to electricity consumers.\4\ 
Transmission provides consumers access to lower-cost forms of 
electricity generation, including high-quality renewable energy 
resources. This report joins dozens of studies from grid operators, 
national laboratories, and others that have found transmission 
investment provides consumers with benefits several times greater than 
its cost. The Southwest Power Pool (SPP) has already realized 
significant benefits from recent transmission investments, with 
benefits expected to exceed costs by a factor of 3.5 over the new 
lines' first 40 years.\5\ The Midcontinent Independent System Operator 
(MISO) has also found that its Multi-Value Projects offer a benefit-to-
cost ratio of between 2.2 and 3.4.\6\ Similarly, the National Renewable 
Energy Laboratory Interconnections (NREL) Seam study found benefit-to-
cost ratios of between 1.8 to 2.9 for various transmission 
configurations.\7\
---------------------------------------------------------------------------
    \4\ American Council on Renewable Energy, Investment Tax Credit for 
Regionally Significant Electricity Transmission Lines, 2021. Accessed 
May 17, 2021 from https://
---------------------------------------------------------------------------
acore.org/wp-content/uploads/2021/05/Investment-Tax-Credit-for-
Regionally-Significant-Electricity-Transmission-Lines-ACORE.pdf#page=8.
---------------------------------------------------------------------------
    \5\ Southwest Power Pool, The Value of Transmission, 2016. Accessed 
May 14, 2021 from https://www.spp.org/documents/35297/
the%20value%20of%20transmission%20report.pdf.
    \6\ Midcontinent Independent System Operator, MTEP17 MVP Triennial 
Review, 2017. Accessed May 14, 2021 from
---------------------------------------------------------------------------
https://cdn.misoenergy.org/
MTEP17%20MVP%20Triennial%20Review%20Report117065.pdf.
---------------------------------------------------------------------------
    \7\ National Renewable Energy Laboratory, Interconnections Seam 
Study, 2020. Accessed May 14, 2021 from https://www.nrel.gov/docs/
fy21osti/78161.pdf.
---------------------------------------------------------------------------
    The tragic power outages in Texas and other parts of the Central 
U.S. in February of this year also underscore the importance of 
transmission to electric reliability and resilience. The ERCOT grid has 
limited ties to neighboring regions, so it was not able to import as 
much electricity as other regions when hit with natural gas supply 
interruptions, generator outages, and high demand in the face of 
extreme weather. In contrast, stronger transmission ties between the 
regions of SPP and MISO allowed those regions to weather the storm with 
less severe power outages, as they were able to import more than 15 
times as much power as ERCOT.\8\
---------------------------------------------------------------------------
    \8\ American Council on Renewable Energy, Investment Tax Credit for 
Regionally Significant Electricity Transmission Lines. Accessed May 17, 
2021.
---------------------------------------------------------------------------
    We respectfully submit the following policy recommendations for 
upgrading and expanding the nation's electric grid to create jobs and 
enhance reliability while deploying higher levels of renewable energy 
and protecting public health: 1) Establishing an Investment Tax Credit 
(ITC) for regionally significant transmission projects; 2) Improving 
transmission planning and cost allocation processes; 3) Resolving 
interconnection backlogs by assigning costs of network upgrades more 
equitably; 4) Providing funding and technical assistance to states, 
tribes, and localities to site transmission lines; and 5) Establishing 
a national policy on transmission.

I.  Establish an Investment Tax Credit for Regionally Significant 
Transmission Projects

    Increased investment in transmission infrastructure expands access 
to, and delivery of, renewable energy resources. Recent studies from 
Princeton, MIT, and others have found that significant transmission 
expansion is needed to deliver the lowest-cost renewable energy to 
market in a time frame compatible with U.S. clean energy 
goals.<SUP>9, 10</SUP> Despite this, necessary investments in 
transmission infrastructure do not receive the same policy support as 
generation resources.
---------------------------------------------------------------------------
    \9\ Princeton University, Net-Zero America: Potential Pathways, 
Infrastructure, and Impacts, 2020. Accessed May 19, 2021 from
---------------------------------------------------------------------------
https://netzeroamerica.princeton.edu/img/
Princeton_NZA_Interim_Report_15_Dec_2020_FINAL.pdf.
---------------------------------------------------------------------------
    \10\ Brown, Patrick and Botterud, Audun, The Value of Inter-
Regional Coordination and Transmission in Decarbonizing the US 
Electricity System, 2021. Accessed May 19, 2021 from https://
www.sciencedirect.com/science/article/abs/pii/
S2542435120305572?dgcid=author.
---------------------------------------------------------------------------
    Congress should enhance the financial viability of regionally 
significant transmission projects through enactment of an investment 
tax credit. Enactment of a transmission investment tax credit (TxTC), 
as contemplated on page 56 of the Committee's June 2020 Solving the 
Climate Crisis Majority Staff Report, would provide developers with the 
investment certainty they need through a predictable, multi-year 
investment structure, all while saving ratepayers money and lowering 
the upfront construction costs of transmission too often undervalued 
rel- 
ative to its economic development, job creation, reliability and environ
mental benefits.
    In March 2021, President Biden called for the creation of a TxTC in 
the American Jobs Plan, urging ``the creation of a targeted investment 
tax credit that incentivizes the buildout of at least 20 gigawatts of 
high-voltage capacity power lines.'' \11\ In April 2021, Rep. Steven 
Horsford, Rep. Susie Lee and Sen. Martin Heinrich followed suit by 
reintroducing the Electric Power Infrastructure Improvement Act (H.R. 
2406/S. 1016). This legislation would promote construction of 
regionally significant projects by providing a 30% tax credit for 
investment in qualifying electric transmission, defined as any 
overhead, submarine, or underground transmission facility with a 
voltage of at least 275 kV and a transmission capacity of at least 500 
MW. The tax credit would apply to properties placed in service before 
December 31, 2031. Later that month, Sen. Ron Wyden reintroduced the 
Clean Energy for America Act (S. 1298), which includes a 30% TxTC for 
high-capacity transmission lines with a minimum voltage of 275 kV. 
Importantly, the Wyden proposal also would provide a direct pay option 
for the TxTC to ensure access by the broadest universe of stakeholders.
---------------------------------------------------------------------------
    \11\ The White House, Fact Sheet: The American Jobs Plan, 2021. 
Accessed May 18, 2021 from https://www.whitehouse.gov/briefing-room/
statements-releases/2021/03/31/fact-sheet-the-
american-jobs-plan/.

II.  Improve Transmission Planning and Cost Allocation to Build More 
---------------------------------------------------------------------------
Regionally Significant and Interregional Projects

    FERC Order No. 1000 governs the regional and interregional 
transmission planning process for cost-allocated projects. In the ten 
years since FERC promulgated Order No. 1000, not one interregional 
transmission line has been built using the process it established. With 
more regionally significant and interregional transmission, we can 
connect centers of high renewable resources with centers of high 
electric demand, enhancing grid reliability and dramatically reducing 
carbon emissions.
    Implementation efforts too often do not incorporate projections of 
the cleaner resource mix we need to build or allow for the use of 
advanced technologies and grid optimization methods that could benefit 
the build-out of clean energy resources by increasing capacity at lower 
cost. These efforts also employ procedures that disincentivize 
transmission interconnection and ignore benefits such as lowered 
delivered energy costs through new renewable integration. Additionally, 
FERC Order No. 1000 requires interregional projects to be separately 
selected in the planning process for each RTO plus a joint RTO planning 
process. Projects which do not have clear benefits within a single RTO 
may not be selected in that RTO's planning process despite benefiting 
the nation as a whole. This is known as the ``triple hurdle'' problem 
of interregional transmission planning.
    Congress should direct FERC to revise Order No. 1000 to produce a 
more robust and efficient transmission system. This can be accomplished 
by requiring planning processes to consider the full range of benefits, 
plan for future needs, utilize more standard and broad cost allocation 
in light of regional benefits, harmonize cross-region planning 
processes and incorporate advanced technologies and grid optimization.
    Commonsense transmission planning reform was contemplated on page 
55 of the Committee's June 2020 Solving the Climate Crisis Majority 
Staff Report.
    In March 2021, Rep. Frank Pallone, Rep. Paul Tonko, and Rep. Bobby 
Rush introduced the Climate Leadership and Environmental Action for our 
Nation's (CLEAN) Future Act (H.R. 1512). Section 217 of the legislation 
directs FERC to convene a technical conference to explore, among other 
things, how transmission providers can plan for interregional 
transmission projects, how interregional transmission planning can 
facilitate the integration of renewable energy resources, and how to 
develop appropriate cost allocation methodologies for interregional 
transmission projects. The legislation also directs FERC to promulgate 
a rule addressing the issues identified in the technical conference.
    In April 2021, Rep. Sean Casten and Sen. Martin Heinrich introduced 
the Interregional Transmission Planning Improvement Act of 2021 (H.R. 
2678/S. 1015) to help bolster the Federal Energy Regulatory 
Commission's interregional transmission planning process. The 
legislation would direct FERC to consider in its rulemaking the 
effectiveness of the existing interregional planning process, specific 
improvement to the process that would meet the stated goals of Order 
1000, and cost allocation methodologies that reflect the multiple 
benefits provided by interregional solutions. The bill would also 
direct FERC to initiate the rulemaking within six months of enactment 
and complete a final rule within 18 months of enactment.

III.  Resolve Interconnection Backlogs to Deploy More Clean Energy

    When a new clean energy generator wants to connect to a congested 
grid, they are often required to pay the full--or nearly the full--cost 
of the upgrades necessary to do so, even though many existing customers 
on the grid benefit from the upgrade. This process is analogous to the 
next car entering a crowded highway paying for the full cost of a lane 
expansion. At the end of 2019, as a result of broken interconnection 
policy, 734 gigawatts of proposed generation--90 percent of which are 
new wind, solar, and storage projects--were waiting in interconnection 
queues nationwide.\12\ These disproportionately high interconnection 
costs are forcing developers to shelve otherwise economic solar and 
wind projects. To deploy this clean energy, Congress should direct FERC 
to assign these costs to the beneficiaries of the upgrades.
---------------------------------------------------------------------------
    \12\ Americans for a Clean Energy Grid, Disconnected: The Need for 
A New Generator Interconnection Policy, 2021. Accessed May 18, 2021 
from
---------------------------------------------------------------------------
https://cleanenergygrid.org/wp-content/uploads/2021/01/Disconnected-
The-Need-for-a-New-Generator-Interconnection-Policy-1.14.21.pdf.
    Page 54 of the Committee's June 2020 Solving the Climate Crisis 
Majority Staff Report recommends that Congress direct FERC to end its 
policy of assigning costs of the regional network to individual 
interconnecting generators and instead incorporate such needs into the 
regional transmission planning and cost allocation processes.

IV.  Provide Funding and Technical Assistance to Help State, Local and 
Tribal Authorities Site Interstate Electric Transmission Lines

    In many instances, state, local and tribal governments do not have 
the resources to conduct the economic and environmental analysis 
required to site and permit interstate transmission lines that pass 
through their jurisdictions, often leading to lengthy delays. Siting 
transmission in a just and environmentally responsible manner is vital 
to building a 21st century grid. Congress can help ensure that 
critically important state, local and tribal voices are represented in 
the discussion by providing targeted assistance in the siting process.
    Page 52 of the Committee's Solving the Climate Crisis Majority 
Staff Report recommends that Congress create a new program at DOE to 
provide federal funding and technical assistance for state, local, and 
tribal authorities to conduct transmission planning and review 
applications to site proposed interstate transmission projects. It also 
recommends that Congress should authorize DOE to provide incentives for 
economic development to these state, local, and tribal jurisdictions.
    Section 218 of the CLEAN Future Act (H.R. 1512) would require DOE 
to establish a program to provide assistance to state, local, and 
tribal governments for the evaluation, permitting, and siting of 
interstate transmission lines. The legislation authorizes $75 million 
per fiscal year from 2022-2031.

V.  Establish a National Policy on Transmission to Guide a 21st Century 
Grid

    Congress should establish a National Policy on Transmission to 
integrate carbon-free resources in a timely and cost-effective manner. 
Our national transmission system is the largest single machine in 
America, if not the largest in history. Nevertheless, there is no 
federal direction on how to make this machine work more efficiently on 
behalf of the nation. This task that has taken on all the more 
importance as we work to decarbonize the grid in a cost-effective 
manner.
    Page 53 of the Committee's Solving the Climate Crisis Majority 
Staff Report recommends that Congress should establish a ``National 
Transmission Policy'' to provide guidance to state and local officials 
and reviewing courts to clarify that it is in the public interest to 
expand transmission to facilitate a decarbonized electricity supply and 
enable greenhouse gas emissions reductions. It recommends that the 
policy statement should also encourage broad allocation of costs.
    Section 211 of the CLEAN Future Act (H.R. 1512) would establish 
that it is the policy of the United States that a modern transmission 
system should facilitate a decarbonized electricity supply to enable 
GHG emissions reductions, and that the public interest is served by 
reducing barriers to transmission investments that enable clean energy 
resources deployment.

Conclusion

    Through this suite of commonsense policy solutions, all previously 
endorsed in the Committee's June 2020 Solving the Climate Crisis 
Majority Staff Report, we will be well prepared to modernize and expand 
our nation's electric grid to drive continued economic growth for 
decades to come while maintaining solid electric reliability and 
meeting our climate challenge. We stand ready to discuss any and all of 
these issues in greater detail at any time. Please let us know if we 
can provide any additional information by contacting Bill Parsons, 
Chief Operating Officer, at (202) 777-7596 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cfcedfeffe3e2ffccedefe3fee9a2e3feeba2">[email&#160;protected]</a>

    Sincerely,

      Gregory Wetstone
      President & CEO
      American Council on Renewable Energy

                                   ++

                                  SEIA

                  Solar Energy Industries Association

May 20, 2021

Chairwoman Kathy Castor
House Select Committee on Climate Crisis
H2-359 Ford House Office Building
Washington, DC 20515

RE:  POWERING UP CLEAN ENERGY: INVESTMENTS TO MODERNIZE AND EXPAND THE 
ELECTRIC GRID

Dear Chairwoman Castor,

    On behalf of the Solar Energy Industries Association (SEIA), I 
first want to thank you for your leadership on behalf of the American 
people and the aggressive work you have already undertaken during the 
beginning days of this 117th Congress to get us on a trajectory to a 
100% clean energy economy by 2050. As the House Select Committee on 
Climate Crisis discusses policy solutions at a hearing titled 
``Powering Up Clean Energy: Investments to Modernize and Expand the 
Electric Grid,'' I wanted to give you some specific details on how the 
solar+storage industry continues to work aggressively towards your 
goals and President Biden's goal of a 100% clean energy future, which 
the nation so desperately needs and deserves.
    SEIA has set a goal of solar+storage energy comprising 20% of the 
U.S. electricity mix by 2030. We have denominated the upcoming 10 years 
as the ``Solar+ Decade'' to represent not just the immense amount of 
solar and energy storage that must be deployed for the U.S. to reach 
both the committee's goal and those stated in the Intergovernmental 
Panel on Climate Change (IPCC) goal for climate mitigation. If we 
achieve this goal, the solar industry will have generated hundreds of 
billions of dollars in investment and created hundreds of thousands of 
American jobs.
    First, we want to commend you for advancing the Transmission Siting 
Assistance Program and the Interconnection Cost Allocation Bill. These 
bills advance exactly the kind of policy needed to meet our clean 
energy future.
    As this Congress progresses towards a clean energy future, 
investment in infrastructure, particularly transmission, will be 
paramount to achieving America's path to 100% clean electricity. In its 
2021 Infrastructure report card, the American Society of Civil 
Engineers gives the U.S. a grade of ``C-'' for its energy 
infrastructure. We continue to under-invest in our grid, and that costs 
customers, both in terms of dollars paid for electricity (more 
transmission reduces congestion, allowing access to cheaper generation) 
and wages/economic output lost due to outages. Additional transmission 
investment could save customers $50 billion annually and reduce 
electricity bills by 10%.\1\ Transmission investments often provide 
benefits two to four times greater than their costs. As we transition 
to a renewable-based electric system, transmission is needed to access 
renewable resources and deliver clean solar power to customers. And we 
need to replace aging infrastructure and build new grid infrastructure 
that meets the needs of our electrifying economy.
---------------------------------------------------------------------------
    \1\ WIRES Report: Well-Planned Electric Transmission Saves Customer 
Costs: Improved Transmission Planning is Key to the Transition to a 
Carbon-Constrained Future. The Brattle Group, Johannes Pfeifenberger 
and Judy Chang (June 2016).
---------------------------------------------------------------------------
    The Federal Energy Regulatory Commission's (FERC) Order No. 1000 
did not achieve the goals of smoother inter-regional transmission 
planning and opportunities for competitively built transmission, in 
part because it required states to commit to paying for proposed 
projects before it could be approved. Some states do not have clear 
mechanisms through which to do this, and cost-sharing between states on 
what was public purpose, what was reliability, and what was market 
efficiency were not easily resolved.
    In general, SEIA believes that competition has the dual benefits of 
lowering costs and increasing innovation. FERC, state policymakers, and 
planning regions should revisit Order No. 1000 to see if modifications 
are warranted to better attain its goals. Even better, Congress should 
provide the necessary incentives and policies necessary to encourage 
FERC, states, public utilities, and wholesale markets to drive needed 
transmission investment.
    In many areas, transmission upgrades will be needed to interconnect 
new renewable generation, a challenge which every solar and storage 
developer faces. Solar projects can often be sited relatively close to 
population centers, making interconnection and localized transmission 
critical to scaling solar deployment.
    Interconnection is the act of mechanically connecting a distributed 
generation project (solar, energy storage, wind) to the local 
distribution electric grid. Interconnection can require electrical 
improvements to existing infrastructure or require construction of 
brand-new facilities. Such upgrades range in complexity from erecting 
new poles and wires to replacing an area substation or even upgrading 
transmission equipment.
    Utilities typically charge solar developers the full cost to 
upgrade their systems to accommodate the new generation source. 
Interconnection rules define how a generation system, such as solar 
photovoltaics (PVs), can connect to the grid. In some areas of the 
United States, the interconnection process lacks consistent parameters 
and procedures for connecting to the grid or is unnecessarily complex. 
This drives up costs and causes delays, which can be significant 
barriers to project development. The ability to interconnect to the 
grid in a cost-effective and timely manner may determine whether a 
project moves forward or not.
    Beyond interconnection, the replacement of aging transmission 
assets coupled with transmission expansion to strengthen the grid and 
decrease congestion will be big drivers of new transmission investment. 
But we also need to focus on the effects of regional transmission 
planning. As of today, for SEIA's goal for solar+storage to power 20% 
of the nation's electricity needs by 2030, no wholesale market in this 
country has run a transmission planning scenario that puts solar 
generation at 20% of their anticipated load in the next decade--except 
for California. With this lack of foresight, we will always be behind 
on our transmission investments.
    Further, state renewable energy portfolio (RPS) policies vary in 
their implementation--some have higher in-state requirements, some 
allow wholesale market wide renewable energy credits, so the impact on 
transmission is a function of how the policies are designed and not 
simply the headline renewable requirement.
    There are transmission success stories. Texas's Competitive 
Renewable Energy Zone (CREZ) and MISO's Multi-Value Projects (MVPs) 
were successfully planned and have built transmission to interconnect 
expected areas of renewable energy build-out (primarily wind). However, 
these success stories are few and far between and we cannot rely on 
existing policy to deliver the investment that we will need to meet the 
climate crisis. In order to achieve deep decarbonization, we need 
policymaker commitment to transmission and solutions to cost 
allocation, along with new incentives for renewable generation.
    We have an opportunity unlike ever before to plan the transmission 
build-out for what the next 100 years will look like. Transmission 
Planners need to take into consideration the growth in renewables (20% 
or more for solar), the need for distributed solar, storage, and other 
technologies too. We must not also forget that as the transportation 
sector is further electrified, grid planners need to anticipate 
consumers using electricity to power their vehicles, both at home and 
at distinct infrastructure points like the communal charging stations 
which will take automation of building systems and greater 
electrification of the economy overall. While no one can predict the 
future with accuracy, being visionary as we approach transmission 
investment will yield better outcomes.
    Lastly, we must address the important need for energy storage. When 
combined with other technologies, energy storage systems add value to 
the total system. Distributed energy systems with energy storage extend 
grid reliability to both sides of the meter. Paired with renewable 
energy generation, the technology makes the renewable electricity 
dispatchable and able to be used with demand management systems to 
shift peak loads. Energy storage, when merged with aging 
infrastructure, improves performance, and extends the service life of 
equipment.
    Battery storage will also empower the grid in multitude of ways; 
similar to a Swiss Army knife, it can offer solutions depending on the 
need. It is important to not box storage into a category of 
transmission or generation. For utilities, energy storage can deliver 
reduced operating costs, increased renewable integration, and decreased 
dependence on fossil-fuel generation. For grid operators, storage can 
provide a more efficient balance between supply and demand, avoid 
system upgrades, and improved reliability. Commercial consumers see 
reduced electricity bills, generated revenue, and control of power 
disruptions. To the residential consumer, it provides the security of 
backup power during blackouts and the benefit of reduced electricity 
bills.
    Important legislation is being considered that, constructed 
correctly, will push us towards a decarbonized future, such as clean 
energy standard and extending the ITC. We also encourage complementary 
policy that encourages competitive markets to exist which provide 
access to more renewables and to minimize hurdles to interregional 
planning and new transmission development.
    SEIA is proud of our industry's contribution to decarbonizing the 
electricity system, but we know we still have a long way to go. Thank 
you for your consideration of these policies and continued dialogue 
with the solar and storage industry.

    Sincerely,

      Sean Gallagher
      Vice-President
      State & Regulatory Affairs

    Ms. Castor. Without objection, all members will have 10 
business days within which to submit additional written 
questions for the witnesses. And I ask our witnesses to respond 
as quickly as possible.
    I also want to thank our professional staff for a very 
good, detailed memo for this hearing. And it is available 
online on our website at climatecrisis.house.gov.
    Hopefully we will be able to work together here to hammer 
out an American Jobs Plan that will help us create jobs, reduce 
pollution, and avoid the worst impacts of the climate crisis.
    With that, the hearing is adjourned. Thank you all very 
much.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]

                 United States House of Representatives

                 Select Committee on the Climate Crisis

                        Hearing on May 20, 2021

                      ``Powering Up Clean Energy:

        Investments to Modernize and Expand the Electric Grid''

                        Questions for the Record

                              Linda Apsey

                           President and CEO

                           ITC Holdings Corp.

                       the honorable kathy castor
    1. Ms. Apsey, investments in transmission would benefit ratepayers 
across the country, increase reliability, create American jobs, and 
enable reductions in carbon pollution from the electricity sector. 
These widespread benefits suggest that modernizing and expanding the 
electric grid should be a goal that Americans of all political stripes 
can support. Should investing in transmission be part of bipartisan 
infrastructure legislation?

    I fully agree that investing in transmission infrastructure should 
be a bipartisan priority, and I have been pleased to note the 
bipartisan support in Congress for investment in this critical 
infrastructure. Investing in a modernized, expanded transmission grid 
offers wide-ranging benefits to communities across the nation and to 
Americans of all political stripes. Well-planned transmission 
investments can accelerate clean energy adoption, increase the 
resilience of the electric system, and create high-paying jobs in 
communities that need them most.
    As I noted in my testimony, transformative transmission investment 
cannot occur absent supportive federal, state, and regional policies. 
In recent years, Congress has made a good start at addressing this need 
by introducing legislation that would create a functional interregional 
planning process, streamline and strengthen federal siting authority, 
and provide financial incentives to large, transformative projects. 
Congress' focus on these issues has sent a strong signal to the private 
sector and helped to build consensus around the need for action. I am 
hopeful that Congress will now take the next step and seize this 
opportunity to pass legislation that supports investments in a 21st 
century electric grid that will benefit all Americans.

    2. Ms. Apsey, the February 2021 winter storm in Texas and the mid-
continent led to the freezing of critical equipment, power outages, and 
even deaths. The Southwest Power Pool (SPP) region was able to import 
power from the PJM Interconnection, which limited power outages. 
Unfortunately, Texas could not do the same because of much smaller ties 
to the other interconnections. Experts concluded that SPP would have 
been even better off had there been more transmission between PJM and 
the Midcontinent Independent System Operator (MISO) and between the 
northern and southern parts of MISO. How can transmission lines promote 
grid reliability as climate change increases the frequency of extreme 
weather?

    As the nation's largest independent electric transmission company, 
ITC owns and operates high-voltage transmission infrastructure in 
Michigan, Iowa, Minnesota, Illinois, Missouri, Kansas and Oklahoma. 
These areas of the United States frequently experience blizzards, 
windstorms, flooding, and other natural disasters, and ITC has observed 
an undeniable increase the frequency and severity of these extreme 
weather events. As recent history has proven, severe weather can cause 
emergency conditions and outages, particularly in areas that do not 
have strong transmission connections with neighboring regions.
    As the nation faces increases in severe weather, transmission 
provides crucial flexibility and redundancy in the system to prevent 
outages and resulting human and economic costs. Strong transmission 
connections within and between regions allow system operators to 
leverage geographic and resource diversity when responding to extreme 
conditions. Further, transmission can reduce the amount of generation 
needed to meet capacity requirements, which reduces the probability of 
generation-related outages in isolated pockets of the system.
    The ability of transmission to enhance resilience is clear; 
however, today's transmission planning regime does not fully value the 
resilience benefits of potential projects. To enhance the ability of 
the electric system to withstand severe weather, a more proactive and 
holistic approach to regional and interregional planning is needed. As 
a first step, regions should engage with their neighbors in 
interregional planning that incorporates resilience considerations, 
which today is not required.

    3. Ms. Apsey, we have hundreds of gigawatts of wind, solar, and 
storage projects stuck in interconnection queues. I am working on 
legislation to help reduce interconnection costs and clear out these 
queues through broader cost allocation and deployment of grid-enhancing 
technologies. How would consumers benefit from clearing out the 
interconnection queues for new wind, solar, and storage projects?

    To the extent that interconnections can be accelerated, consumers 
will benefit from access to lower cost generation, cleaner air, and 
high-quality infrastructure jobs. In ITC's view, the best way to 
address queue backlogs is to adopt a ``transmission-first'' proactive 
planning approach that facilitates regional and inter-regional 
transmission build. The current practice, which focuses on incremental 
additions to the system for each new generation source, imposes 
significantly higher costs over the long-run and results in the 
backlogs we see today.
    As you correctly note, transmission cost allocation continues to be 
a major obstacle to transmission development and the interconnection 
process. In order to properly recognize beneficiaries of transmission, 
policymakers should provide supportive cost allocation mechanisms that 
consider multiple benefits and assign costs accordingly. This, along 
with a proactive regional planning process, will help to accelerate the 
queue process and provide significant benefits to consumers.

    4. Ms. Apsey, you stated in your testimony that an investment tax 
credit could support transmission expansion. According to a recently 
released report from the American Council on Renewable Energy (ACORE), 
an investment tax credit for transmission could spur 4,000 miles of 
high-capacity lines, capable of serving 30 gigawatts of new renewable 
energy projects. If completed, these lines and new projects would 
create over 600,000 jobs and spur $15 billion in new investment. Please 
describe the kinds of benefits you anticipate from an Investment Tax 
Credit.

    A well-designed Investment Tax Credit for transmission can offer a 
useful tool to promote large, transformative transmission projects that 
can accelerate renewable development and enhance system resilience. For 
non-regulated transmission projects (sometimes known as ``merchant'' 
projects), the story is simple; an investment tax credit reduces the 
costs that must be recovered through contracted rates, making it easier 
to secure the necessary agreements and move ahead to construction.
    For regulated transmission projects, an investment tax credit can 
help to reduce the costs that customers must bear for major lines. 
This, in turn, can help to secure project approval, which is often done 
based on an accounting of costs and benefits. The tax credit can also 
make it easier to secure broad cost allocation agreements amongst 
stakeholders, which are necessary to build regional and interregional 
transmission. Further, if the tax credit is limited in duration, this 
can help encourage stakeholders to move ahead with projects faster to 
ensure they qualify for the credit within the eligibility window.
    For FERC-regulated projects, policy design is key to ensure the tax 
credit works as intended. ITC believes it is important that the credit 
is only available to those projects that need it to move forward, 
rather than available retroactively to projects which have already 
secured key approvals (and would move ahead regardless). If this is 
achieved, the tax credit can be a meaningful ``tool in the toolbox'' to 
support significant new investments in beneficial transmission 
infrastructure.
                      the honorable jared huffman
    1. In addition to more renewable energy, we want a grid that 
doesn't spark fires every time the wind blows. As someone who 
represents arid California, how will these grid modernization 
investments also address the fire-prone nature of our current grid?

    ITC's footprints are located in the Midwest, which rarely 
experiences wildfires. Instead, our region experiences severe cold, 
windstorms, flooding, and high summer temperatures. As such, I can only 
speak to ITC's experience managing resilience risks specific to our 
footprints. However, we believe the principle that grid modernization 
and expansion can enhance resilience by adding flexibility and 
redundancy to the system holds true regardless of the specific nature 
of the threat.
    In ITC's view, electric infrastructure cannot be made fully 
resilient through any single program or set of design codes. Instead, 
resilience must be pursued through a multi-faceted commitment to 
enhanced design standards, proactive system maintenance, aging 
infrastructure replacement, and long-term system planning that 
prioritizes enhanced transfer capability and critical path redundancy. 
All of these measures have a cost, which must be considered against the 
nature of the risk, hand-in-hand with regulatory authorities and key 
stakeholders.
    Given the regional differences in resilience threats, local 
transmission owners best understand the unique geographies and needs of 
their systems. In consultation with regulators and stakeholders, 
transmission owners should be afforded flexibility to pursue resilience 
measures best suited to region-specific threats.

                        Questions for the Record

                             Donnie Colston

                      Director, Utility Department

            International Brotherhood of Electrical Workers

                       the honorable kathy castor
    1. Mr. Colston, investments in transmission would benefit 
ratepayers across the country, increase reliability, create American 
jobs, and enable reductions in carbon pollution from the electricity 
sector. These widespread benefits suggest that modernizing and 
expanding the electric grid should be a goal that Americans of all 
political stripes can support. Should investing in transmission be part 
of bipartisan infrastructure legislation?

    Speaking for the International Brotherhood of Electrical Workers, 
the IBEW strongly supports the inclusion of federal investment in 
electrical transmission as part of a bipartisan infrastructure bill. 
Our electrical grid is one of the fundamental building blocks upon 
which the rest of our nation's infrastructure, investments and 
innovations rely upon. It is critical that all Americans have access to 
safe, reliable electricity upon demand. This is not simply a matter of 
the convenience of turning on your television or electronic device. 
This can be a matter of life or death for Americans who need reliable 
electrical service to keep their oxygen machines on or who need regular 
dialysis services.
    We have seen some of the unfortunate events in recent years that 
can take place when electrical service, both at the transmission and 
distribution level, becomes unreliable or when transmission lines need 
to be temporarily powered down due to the weather or when a regional 
transmission organization (RTO) or independent system operator (ISO) do 
not have enough tie-ins to neighboring electric power transmission 
systems. The IBEW believes the federal government can play an important 
role in providing the investments necessary to facility much needed 
transmission line construction that would avoid these recent blackouts, 
as well as update regulations that would help facilitate more 
privately-financed transmission construction.
    Robust federal investment in transmission would also mean 
significant work for our members. Outline line construction and 
maintenance is difficult work that needs to be undertaken by trained 
professionals. This type of work, in addition, provides the types of 
middle class, family-sustaining wages and benefits that have been 
called for by President Joe Biden and many Members of Congress as a key 
benefit of pursuing bipartisan infrastructure legislation.

    2. Mr. Colston, the February 2021 winter storm in Texas and the 
mid-continent led to the freezing of critical equipment, power outages, 
and even deaths. The Southwest Power Pool (SPP) region was able to 
import power from the PJM Interconnection, which limited power outages. 
Unfortunately, Texas could not do the same because of much smaller ties 
to the other interconnections. Experts concluded that SPP would have 
been even better off had there been more transmission between PJM and 
the Midcontinent Independent System Operator (MISO) and between the 
northern and southern parts of MISO. Would building new transmission 
lines help increase the reliability of the grid?

    Without question, building new transmission lines would help 
increase the reliability of the North American electrical grid. In 
2017, IBEW International President Lonnie R. Stephenson testified 
before the House Energy and Commerce Committee saying as such, ``We 
need a truly national grid and new transmission lines that can safely 
and reliably transfer power--including renewables like wind and solar--
from energy rich regions to those parts of the country most in need. 
And that means we need new transmission projects that will cross 
multiple jurisdictions and state lines.'' \1\ The IBEW continues to 
hold the same stance that additional transmission lines would provide 
greater reliability. It is our sincere hope that greatly federal 
investment in electrical transmission will help avoid future 
catastrophes, such as the February 2021 Texas blackouts that impacted 
millions of Americans, including a large number of our membership in 
the state.

    3. Mr. Colston, we have hundreds of gigawatts of wind, solar, and 
storage projects stuck in interconnection queues. I am working on 
legislation to help reduce interconnection costs and clear out these 
queues through broader cost allocation and deployment of grid-enhancing 
technologies. I am also working on legislation to help develop new 
interstate transmission lines by providing technical assistance and 
incentives to state and local governments. How would consumers benefit 
from clearing out the interconnection queues for new wind, solar, and 
storage projects? Would federal technical assistance and incentives to 
state and local governments help speed up consideration of interstate 
transmission lines?

    In response to the question regarding Chair Castor's legislation to 
help develop new interstate transmission lines by providing technical 
assistance and incentives to state and local governments, my written 
testimony states the following: ``We are also supportive of the 
proposal to authorize federal funding for the Department of Energy to 
provide technical assistance for state, local and tribal authorities to 
conduct transmission planning and review applications of proposed 
transmission projects.'' Technical assistance and incentives to state, 
local and tribal governments to develop new interstate transmission 
lines would enhance the safety and reliability of the electrical grid, 
allow additional renewable and low carbon generation to be added to the 
grid, and very likely put more IBEW members to work.
    In addition, the IBEW supports efforts to accelerate the 
construction of electrical transmission lines. One of the more 
significant issues to building additional electrical transmission is 
cost allocation. In 2019, the IBEW signed onto a multi-stakeholder 
letter, including the Edison Electric Institute (EEI), the Solar Energy 
Industries Association (SEIA) and WIRES, regarding electrical 
transmission policy. Among the principles all the stakeholders agreed 
to was:

     [T]he Federal Energy Regulatory Commission, the U.S. Department of 
Energy, and state economic regulators should assess the need to improve 
upon and revise regulatory processes and corresponding regulations and 
policies governing the planning and cost allocation of high voltage 
electric transmission, balancing the public's interest in expedition, 
cost savings, care of the environment, and an equitable sharing of 
burdens.\2\

    The IBEW still stands behind these policies in regards to improving 
and revising regulatory processes for transmission planning and cost 
allocation, particularly the principle of an equitable sharing of 
burdens. As such, we hope Chair Castor's legislation will uphold the 
principle of an equitable sharing of burdens when it comes to the cost 
allocation of electrical transmission.

                            References Page

    \1\ https://www.ibew.org/media-center/Articles/17daily/1702/
170221_WhatIBEWandCongress.
    \2\ https://wiresgroup.com/diverse-coalition-signs-statement-of-
principles-on-modernizing-the-electric-transmission-grid/.

                        Questions for the Record

                          Emily Sanford Fisher

                General Counsel, Corporate Secretary and

                  Senior Vice President, Clean Energy

                       Edison Electric Institute

                       the honorable kathy castor
    1. The Select Committee's 2020 majority staff report ``Solving the 
Climate Crisis: The Congressional Action Plan for a Clean Energy 
Economy and a Healthy, Resilient, and Just America'' calls for adoption 
of clean energy standard (CES) to achieve net-zero emissions in the 
electricity sector. Portfolio standards are a proven tool for cutting 
carbon pollution: in the United States, thirty states, Washington, 
D.C., and three territories have adopted a renewable portfolio standard 
or CES. What are the critical issues that Congress must consider in 
developing a national CES? What is EEI's position on a national CES?

    The Edison Electric Institute (EEI) supports a well-designed CES as 
an important tool for reinforcing and accelerating electric companies' 
ongoing clean energy transition. As of year-end 2020, the electric 
power sector had reduced its carbon emissions 40 percent below 2005 
levels, while keeping electricity affordable and reliable for 
customers. Today, carbon emissions from the electric power sector are 
at their lowest level in more than 40 years--and they continue to fall.
    A diverse array of clean energy resources has made these reductions 
possible: 40 percent of all U.S. power generation now comes from clean, 
carbon-free sources, including nuclear energy, hydropower, wind, and 
solar energy. Accordingly, one of the most critical issues in 
developing a national CES is the continued focus on using all clean, 
carbon-free resources. A CES must recognize or credit all clean 
resources, including nuclear energy and hydropower, and must be 
flexible enough to value new and emerging technologies, like carbon 
capture and storage (CCS) and hydrogen, among others.
    In addition, as many recent studies assessing the paths to a 
carbon-free U.S. economy indicate, combined cycle and combustion 
turbines will continue to be the most cost-effective technologies to 
integrate more renewable energy reliably.\1\ These 24/7 technologies, 
which use natural gas today, can be transitioned to cleaner fuels or 
retrofitted with CCS as those options become available at scale and at 
costs that protect customers. A CES, therefore, should recognize the 
value of these technologies both today and in the future.
---------------------------------------------------------------------------
    \1\ See, e.g., E. Larson, C. Greig, J. Jenkins, E. Mayfield, A. 
Pascale, C. Zhang, J. Drossman, R. Williams, S. Pacala, R. Socolow, EJ 
Baik, R. Birdsey, R. Duke, R. Jones, B. Haley, E. Leslie, K. Paustian, 
and A. Swan, Net-Zero America: Potential Pathways, Infrastructure, and 
Impacts, interim report (Princeton University, Princeton, NJ, Dec. 15, 
2020) at Clean Firm Resources and Thermal Plant Retirements, pp. 177-
199,
---------------------------------------------------------------------------
https://netzeroamerica.princeton.edu/img/
Princeton_NZA_Interim_Report_15_Dec_2020_FINAL.pdf.
    Other important design elements for any CES include compliance 
flexibilities, such as banking and credit trading, and other tools that 
recognize that continued increases in the amount of clean energy 
deployment are not likely to occur at an even annual pace, but instead 
in ``chunks'' as new generation is built and other generation is 
retired. Similarly, using a company-specific, multi-year average as a 
baseline can be an important design element to recognize that there is 
variability in annual reductions and that different companies and 
regions are starting at different places in the clean energy 
transition.
    Cost-containment mechanisms should be included to protect 
customers. These can include alternative compliance payments and price 
caps. Timing flexibilities also are necessary to preserve affordability 
and reliability. These tools allow companies to match compliance 
deadlines with the availability of technology, particularly new, 24/7 
clean resources, and can help address factors beyond companies' 
control, like the timeline for the development of new transmission 
necessary to interconnect new clean resources.
    The timeline for achieving 100 percent clean energy targets will 
depend on the development of new, affordable carbon-free technologies, 
which include long-duration storage; CCS; advanced renewable 
generation; advanced nuclear generation; and new fuels, such as 
hydrogen. As a CES alone may not incent sufficient research, 
development, demonstration, and deployment investments in these 
technologies in this decade, complementary policies should be part of 
any larger legislative package that includes a CES.
    Similarly, while a CES can be an important tool to support and 
accelerate the clean energy transition for the electric power sector, 
other policies will be needed to ensure economy-wide reductions. Clean 
electricity can help reduce emissions in other sectors, particularly 
the transportation and building sectors. To the extent necessary, a CES 
should recognize and support the electric power sector's role in 
helping achieve economy-wide carbon reduction goals.

    2. Ms. Fisher, investments in transmission would benefit ratepayers 
across the country, increase reliability, create American jobs, and 
enable reductions in carbon pollution from the electricity sector. 
These widespread benefits suggest that modernizing and expanding the 
electric grid should be a goal that Americans of all political stripes 
can support. Do you think it would be a missed opportunity if we did 
not invest in transmission as part of infrastructure legislation?

    EEI's member companies invest more than $120 billion each year, on 
average, to make the energy grid smarter, stronger, cleaner, more 
dynamic, and more secure. These investments help diversify the nation's 
energy mix and integrate new technologies that benefit customers. They 
also create jobs, as EEI's member companies and their workers partner 
to modernize the energy grid to better serve customers.
    Electric transmission infrastructure is the backbone of the 
nation's energy grid and is critical to facilitating the continued 
transition to clean energy. The transmission system already has enabled 
electric companies to integrate more clean energy resources and 
technologies into the grid affordably and reliably. To support the 
clean energy transition, critical electric transmission and other 
energy grid infrastructure must be built more quickly.
    In addition to investing in transmission--including supporting 
increased private investment in transmission--other complementary 
policies are needed. The way the nation plans, permits, and pays for 
transmission can present more significant obstacles to building the 
transmission we need in reasonable timeframes than a lack of 
investment. Coupling federal investment support with other policy 
changes is essential.
    In two critical areas, federal government support for continued and 
expanded investment in the energy grid could be transformative. First, 
investments to improve the resiliency of the energy grid (ensuring 
electric companies are at the center of such modernization) may be 
necessary to help some communities adapt to the changing climate and 
increased risks of natural disasters, including storms, hurricanes, and 
wildfires. Public-private partnerships, grants, and funding for state 
energy offices to address resiliency can be effective tools to support 
these investments and to leverage investments being made by EEI 
members.
    Specifically, EEI supports H.R. 2885/S. 1432, the Power On Act; S. 
704, the Disaster Safe Power Grid Act; reauthorization of the Smart 
Grid Investment Program to recognize deployment of resiliency 
technologies; and, within the CLEAN Future Act, Section 230, the 21st 
Century Power Grid Act, and Section 371, Facilities Energy Resiliency, 
which boosts funding for the Department of Energy's State Energy 
Program.
    Second, federal support for investments in electric vehicle (EV) 
charging infrastructure can spur transportation electrification. Today, 
the largest challenge facing the EV market is the charging 
infrastructure needed to support market growth, not the energy grid 
that powers that infrastructure. A report from EEI and the Institute 
for Electric Innovation predicts that, by 2030, U.S. EV sales will 
exceed 3.5 million per year and that 18.7 million passenger EVs will be 
on U.S. roads, requiring about 9.6 million charging stations.
    EEI's member companies are investing nearly $3 billion in customer 
programs and projects to deploy charging infrastructure and to 
accelerate electric transportation. Increasing investment from all 
stakeholders--including electric companies, automakers, charging 
network providers, and others--will help drive transportation 
electrification.
                     the honorable anthony gonzalez
    1. As we look to modernize the grid and secure it from cyber 
intrusions, what is the role of private communications networks?

    2. What opportunity is there to leverage utility communications 
networks and related infrastructure to help bridge the ``digital 
divide'' and deliver high-speed internet access to locations that have 
electricity but lack reliable access to broadband service?

    Electric companies long have incorporated telecommunications 
equipment and fiber technology into their operations--particularly in 
rural areas--to support their communications infrastructure and to 
provide real-time monitoring and controls for generation and 
transmission operations.
    Substantial investments in telecommunications technology are needed 
to make the energy grid smarter, stronger, cleaner, more reliable, and 
more secure. Building out electric companies' telecommunications 
network supports secure communications for mission-critical 
applications, facilitates additional smart grid tools and distributed 
energy resources, and makes the grid more resilient and more efficient. 
As regulated service providers, electric companies are well-positioned 
to help close the digital divide, as they have a physical connection to 
nearly every home and business within their service territory.
    The importance of increasing access to broadband and making it 
universally available can be compared to the electrification of the 
United States, and policymakers are looking to electric companies to 
help bridge the gap. To provide multiple benefits to customers, 
electric companies are working with the communities they serve and with 
broadband providers to forge ahead with creative new partnerships 
designed to benefit everyone.
    With the formation of partnerships, needed changes to state 
initiatives and laws, and the support of local communities, many 
electric companies are helping to bring affordable and reliable 
broadband to underserved and unserved communities, particularly as they 
upgrade the energy grid and install more fiber to support their 
critical communications network. Electric companies can install new 
fiber within their existing networks with enough capacity to support 
their needs and can lease additional capacity to others. This ability 
to install and to lease additional fiber has helped to lower broadband 
deployment costs in historically high-cost underserved and unserved 
communities.
    Under this arrangement, the electric company provides the ``middle 
mile'' infrastructure--the segment that connects a local access point 
to the major carriers and the broader internet--which the internet 
service provider (ISP) will use to build out ``last mile'' broadband 
services to homes and businesses. Installing middle mile infrastructure 
typically is cost-prohibitive for ISPs in these areas, but partnering 
with electric companies allows both entities to build needed 
infrastructure cost-effectively and to reduce costs both for 
electricity customers and new internet customers.
                        the honorable mike levin
    1. As we are all aware, the condition and operation of the grid in 
California has led to repeated catastrophic wildfires in our state. I 
wanted to touch on the role that technology can play as we seek to 
address wildfire risk. A utility in my district is working to deploy a 
solution that uses wireless broadband, smart grid technology to depower 
broken lines before they contact the ground. This is intended to 
eliminate the ability for downed lines to serve as an ignition source 
for wildfires. Ms. Fisher, do you believe widescale deployment of this 
type of solution could help protect against the sort of utility-caused 
wildfires we've experienced in California? And if so, what policy 
changes or funding recommendations would accelerate deployment of this 
and related technologies?

    Wildfires are a persistent and dangerous threat throughout much of 
the country, and they are particularly prevalent in the West. Nearly 85 
percent of wildfires are ``human-caused,'' a broad category that 
includes fires started by unattended campfires, burning debris, 
equipment use and malfunctions, improperly discarded cigarettes, and 
arson. Electrical equipment and downed power lines also can pose a 
potential fire risk, particularly when the weather is hot, dry, and 
windy.
    Wildfire behavior is unpredictable due to many variables, including 
weather conditions, terrain, and tree and vegetation species. This 
confluence of factors, coupled with changing climate conditions and 
population growth in more remote areas known as the wildland urban 
interface, is leading to more frequent, more destructive, and more 
costly wildfires.
    Given the growing threat of wildfires within their service 
territories, electric companies continue to invest in mitigation, 
detection, and response efforts to reduce wildfire risk. They also are 
focused on prevention, protection, and public-private partnerships.
    Electric companies are making significant investments to harden 
their systems and to make the energy grid more resilient. Actions 
include incorporating artificial intelligence, aerial inspections, and 
various low- and high-tech methods to mitigate potential fire risk 
caused by electrical equipment and to defend against passing wildfires.
    While it is not possible to predict definitively where and when a 
wildfire may start, it is possible to use data analytics, combined with 
increasingly accurate weather forecasts and vegetation conditions, to 
identify high-risk areas. In addition to their enhanced mitigation 
efforts, some electric companies preemptively shut off power in these 
risk-prone areas when dangerous weather conditions or high wind events 
are predicted that could impact electric equipment and power lines. In 
recent years, electric companies have made significant investments in 
the energy grid--including system segmentation, islanding, and 
microgrid deployment--that have reduced the scale and scope of these 
events.
    As noted, EEI supports the following bills, which would support 
efforts to minimize the wildfire risks that electric equipment may 
pose: H.R. 2885/S. 1432, the Power On Act; S. 704, the Disaster Safe 
Power Grid Act; reauthorization of the Smart Grid Investment Program to 
recognize deployment of resiliency technologies; and, within the CLEAN 
Future Act, Section 230, the 21st Century Power Grid Act, and Section 
371, Facilities Energy Resiliency, which boosts funding for the 
Department of Energy's State Energy Program.
    Hardening their systems against increasingly destructive weather 
conditions is a top investment priority for electric companies. Among 
their investments, electric companies are installing stronger and more 
fire-resistant poles and are placing sensors, high-definition cameras, 
and weather stations and other protective technologies in the field to 
provide real-time or near real-time information to electric company 
command centers and first responders.
    Collectively, the electric power industry has improved real-time 
situational awareness capabilities significantly. In fact, electric 
companies in the West have some of the most advanced weather tracking 
systems in the country. They also are coordinating with various federal 
agencies through the Department of Energy to establish shared 
information platforms that will allow access to mapping tools, 
satellite data, fire spread modeling, and other analytics that will 
help drive real-time decisions and actions.
    In addition to reducing the risk of fires caused by electric 
equipment, these measures help to protect equipment from being damaged 
or destroyed by wildfires and help to minimize service disruptions 
within and adjacent to fire perimeters.
    While wildfires typically are seasonal, electric companies work 
closely year-round with federal, state, local, and tribal agencies to 
help identify high-risk areas. This constant collaboration, 
coordination, and communication focuses unified attention on proactive 
mitigation measures ranging from high-tech data analysis and aerial 
inspections via drones to fuel reduction and vegetation management. The 
electric power industry also enjoys great cooperation with federal 
government partners--specifically the U.S. Forest Service; the 
Departments of Agriculture, Energy, and Interior; and the Federal 
Aviation Administration--as well as with state regulators and local 
officials.
    EEI's CEO Wildfire Task Force and the Electricity Subsector 
Coordinating Council's Wildfire Working Group, which includes investor-
owned electric companies, electric cooperatives, and public power 
utilities, are focused on mitigation efforts, detection, and response 
as part of a comprehensive wildfire strategy. These efforts are core 
industrywide objectives for ensuring public safety.
    Electric companies--individually and through partnerships with 
federal, state, and local stakeholders--are taking extraordinary 
measures to reduce wildfire risks on their systems and are working 
closely with wildfire managers before, during, and after fires to help 
save lives and protect property. Public policies must be reformed to 
support the continued efforts by electric companies and their wildfire 
partners to mitigate wildfire risk. It is vital that policymakers:

    <bullet>  Pursue land management strategies that allow electric 
companies to protect power line rights-of-way (ROW) by allowing access 
and authority to conduct vegetation management and operation and 
maintenance activities within and adjacent to ROW.
    <bullet>  Identify and enhance partnership opportunities to assist 
in fuel reduction efforts on federal lands.
    <bullet>  Expand the use of drones beyond the visual line of sight 
to conduct more efficient, cost-effective, and timely inspections for 
wildfire mitigation.
    <bullet>  Increase investments in grant programs at the Department 
of Energy and with the national laboratories to identify available and 
emerging technologies that could prevent, detect, and mitigate wildfire 
impacts. Regulatory structures should allow the deployment of this 
technology.
    <bullet>  Increase investments in grant programs at the Department 
of Energy to address costs associated with wildfire risk mitigation 
efforts.
    <bullet>  Increase investment in infrastructure resilience and 
recovery by providing federal funding for grants and tax incentives for 
investments in wildfire mitigation technologies.

                        Questions for the Record

                             Michael Skelly

                            Founder and CEO

                              Grid United

                       the honorable kathy castor
    1. Mr. Skelly, you alluded to the February 2021 winter storm in 
Texas and the mid-continent in your testimony. This storm led to the 
freezing of critical equipment, power outages, and even deaths. The 
Southwest Power Pool (SPP) region was able to import power from the PJM 
Interconnection, which limited power outages. Unfortunately, Texas 
could not do the same because of much smaller ties to the other 
interconnections. Experts concluded that SPP would have been even 
better off had there been more transmission between PJM and the 
Midcontinent Independent System Operator (MISO) and between the 
northern and southern parts of MISO. How can transmission lines promote 
grid reliability as climate change increases the frequency of extreme 
weather?

    As I stated in my testimony, no grid system covered itself in glory 
during the tragic events of February's deep freeze. It is clear, 
however, the system operators who had access to bulk power flows from 
neighboring regions were better positioned to mitigate the worst of the 
effects from the freeze. With its limited transmission ties to other 
regions, the ERCOT power system was only able to import about 800 MW 
while trying to balance its short supply and heavy demand. Its 
neighbors, SPP and MISO were able to import roughly 15 times that 
amount during the winter storm because of stronger interregional 
transmission connections.
    As climate change increases the frequency of extreme weather 
events, high-voltage transmission lines will play a critical role in 
ensuring the resilience and reliability of our power systems. Winter 
Storm Uri broadly impacted multiple regions. However, like other such 
events we have seen in the past, Uri was at its most extreme only in 
areas much smaller than the size of the Eastern and Western 
Interconnections. Strong transmission connections across regions 
allowed power to be exported from regions not experiencing stressed 
power demands to areas with the worst of the extreme weather.
    More regional transmission ties inherently create a more climate 
resistant system. Had the proposed Southern Cross transmission line 
been operational during storm Uri, its 2000 MW of capacity could have 
powered 400,000 homes within the ERCOT system. If the ERCOT region had 
multiple such ties, Uri would have been a much less harmful event--
perhaps even mitigated entirely.

    2. Mr. Skelly, we have hundreds of gigawatts of wind, solar, and 
storage projects stuck in interconnection queues. I am working on 
legislation to help reduce interconnection costs and clear out these 
queues through broader cost allocation and deployment of grid-enhancing 
technologies. I am also working on legislation to help develop new 
interstate transmission lines by providing technical assistance and 
incentives to state and local governments. How would consumers benefit 
from clearing out the interconnection queues for new wind, solar, and 
storage projects? Would federal technical assistance and incentives to 
state and local governments help speed up consideration of interstate 
transmission lines?

    Any technical assistance that can be given to state and local 
governments to help speed along system-wide transmission planning would 
be a welcomed new development. Clearing interconnection queues across 
the country is the key to reaching ambitious de-carbonization goals. 
The wind, solar, and storage projects currently trapped in these queues 
will remain stuck absent robust policy changes in transmission 
planning. The best wind and solar capacity in the country is located in 
sparsely-populated regions with relatively modest load centers, and--
importantly--weak existing transmission lines to tie into.
    Current transmission planning methodologies in RTOs and ISOs across 
the country place the burden of network system planning on generators. 
By more broadly cost-allocating interconnection upgrades, individual 
costs to consumers will be reduced because more low cost renewables 
will get built.
    Consumers will benefit from the clearing out of interconnection 
queues around the country through the lower cost wholesale energy 
prices of wind and solar projects relative to other forms of power 
generation. This will mean lower emissions of pollution and cleaner air 
as more fossil fuel plants are retired and replaced with clean energy.

    3. Mr. Skelly, you stated in your testimony that an investment tax 
credit could support transmission expansion. According to a recently 
released report from the American Council on Renewable Energy (ACORE), 
an investment tax credit for transmission could spur 4,000 miles of 
high-capacity lines, capable of serving 30 gigawatts of new renewable 
energy projects. If completed, these lines and new projects would 
create over 600,000 jobs and spur $15 billion in new investment. Please 
describe the kinds of benefits you anticipate from an Investment Tax 
Credit.

    An Investment Tax Credit (ITC) of the kind identified in the ACORE 
report would allow more projects to pass the benefit-to-cost ratio test 
by lowering the denominator of this test. If more transmission lines 
are built, we will realize lower carbon emissions, lower cost 
electricity prices as more renewables escape interconnection queues, 
and more resilient systems to extreme weather events caused by climate 
change. Not only will cost-allocated projects reap the benefits of an 
ITC, but the economics of more merchant transmission lines improve with 
a 30% ITC.
    For ``merchant'' lines that are not cost allocated, reducing the 
cost of the projects via an ITC will allow transmission developers to 
lower their transmission charges and thus more projects to get built.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
